<html>
<title> - THE STATE OF AMERICAN HIGHER EDUCATION: WHAT ARE PARENTS, STUDENTS, AND TAXPAYERS GETTING FOR THEIR MONEY? HEARING BEFORE THE COMMITTEE ON EDUCATION AND THE WORKFORCE HOUSE OF REPRESENTATIVES ONE HUNDRED EIGHTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                        THE STATE OF AMERICAN HIGHER 
                   EDUCATION: WHAT ARE PARENTS, STUDENTS, 
                   AND TAXPAYERS GETTING FOR THEIR MONEY?


                                 HEARING

                               BEFORE THE

                       COMMITTEE ON EDUCATION AND
                             THE WORKFORCE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION
		
                               __________

             HEARING HELD IN WASHINGTON, DC, MAY 13, 2003

                               __________

                           Serial No. 108-15

           Printed for the use of the Committee on Education
                          and the Workforce



 87-721 pdf

For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800
FAX: (202) 512-2250  Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON EDUCATION AND THE WORKFORCE
                        JOHN A. BOEHNER, Ohio, Chairman

THOMAS E. PETRI, Wisconsin					GEORGE MILLER, California
CASS BALLENGER, North Carolina				DALE E. KILDEE, Michigan
PETER HOEKSTRA, Michigan					MAJOR R. OWENS, New York
HOWARD P. "BUCK" McKEON, California			DONALD M. PAYNE, New Jersey
MICHAEL N. CASTLE, Delaware				ROBERT E. ANDREWS, New Jersey
SAM JOHNSON, Texas					LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania				RUBE?N HINOJOSA, Texas
CHARLIE NORWOOD, Georgia				CAROLYN McCARTHY, New York
FRED UPTON, Michigan					JOHN F. TIERNEY, Massachusetts
VERNON J. EHLERS, Michigan					RON KIND, Wisconsin
JIM DeMINT, South Carolina					DENNIS J. KUCINICH, Ohio
JOHNNY ISAKSON, Georgia					DAVID WU, Oregon
JUDY BIGGERT, Illinois					RUSH D. HOLT, New Jersey
TODD RUSSELL PLATTS, Pennsylvania				SUSAN A. DAVIS, California
PATRICK J. TIBERI, Ohio					BETTY McCOLLUM, Minnesota
RIC KELLER, Florida					DANNY K. DAVIS, Illinois
TOM OSBORNE, Nebraska					ED CASE, Hawaii
JOE WILSON, South Carolina					RAU?L M. GRIJALVA, Arizona
TOM COLE, Oklahoma					DENISE L. MAJETTE, Georgia
JON C. PORTER, Nevada					CHRIS VAN HOLLEN, Maryland
JOHN KLINE, Minnesota					TIMOTHY J. RYAN, Ohio
JOHN R. CARTER, Texas					TIMOTHY H. BISHOP, New York
MARILYN N. MUSGRAVE, Colorado					
MARSHA BLACKBURN, Tennessee					
PHIL GINGREY, Georgia
MAX BURNS, Georgia


                        Paula Nowakowski, Chief of Staff
                     John Lawrence, Minority Staff Director























TABLE OF CONTENTS

TABLE OF CONTENTS	i

OPENING STATEMENT OF CHAIRMAN JOHN BOEHNER, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, 
WASHINGTON, DC.	1

OPENING STATEMENT OF REPRESENTATIVE DALE KILDEE, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, 
WASHINGTON, DC	3

STATEMENT OF CHARLES MILLER, CHAIRMAN, UNIVERSITY OF TEXAS SYSTEM 
BOARD OF REGENTS, HOUSTON, TEXAS	6

STATEMENT OF DR. MARY ELLEN DUNCAN, PRESIDENT, HOWARD COMMUNITY 
COLLEGE, COLUMBIA, MARYLAND	8

STATEMENT OF DR. FRANK NEWMAN, DIRECTOR, THE FUTURES PROJECT, 
BROWN UNIVERSITY, PROVIDENCE, RHODE ISLAND	9

APPENDIX A -- WRITTEN OPENING STATEMENT OF CHAIRMAN JOHN BOEHNER, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, DC.	49

APPENDIX B -- WRITTEN STATEMENT OF CHARLES MILLER, CHAIRMAN, 
UNIVERSITY OF TEXAS SYSTEM BOARD OF REGENTS, HOUSTON, TEXAS	57

APPENDIX C -- WRITTEN STATEMENT OF DR. MARY ELLEN DUNCAN, PRESIDENT, 
HOWARD COMMUNITY COLLEGE, COLUMBIA, MARYLAND	71

APPENDIX D -- WRITTEN STATEMENT OF DR. FRANK NEWMAN, DIRECTOR, THE 
FUTURES PROJECT, BROWN UNIVERSITY, PROVIDENCE, RHODE ISLAND	97

APPENDIX E -- ADDITIONAL MATERIAL SUBMITTED BY DR. FRANK NEWMAN IN 
RESPONSE TO CHAIRMAN BOEHNER'S REQUEST	107

APPENDIX F -- RESPONSES FROM CHARLES MILLER AND DR. MARY ELLEN 
DUNCAN TO REPRESENTATIVE RUBEN HINOJOSA'S SUBMITTED WRITTEN 
QUESTIONS	167

APPENDIX G - WRITTEN STATEMENT SUBMITTED FOR THE RECORD BY 
REPRESENTATIVE DENNIS J. KUCINICH, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES	179

TABLE OF INDEXES	183



THE STATE OF AMERICAN HIGHER EDUCATION:

WHAT ARE PARENTS, STUDENTS, AND TAXPAYERS

GETTING FOR THEIR MONEY?
________________________________________________

TUESDAY, MAY 13, 2003

HOUSE OF REPRESENTATIVES,

COMMITTEE ON EDUCATION AND THE WORKFORCE,

WASHINGTON, D.C.

The committee met, pursuant to call, at 2:05 p.m., in Room 2175, Rayburn House Office 
Building, Hon. John A. Boehner [chairman of the committee] presiding.

	Present:  Representatives Boehner, Hoekstra, McKeon, Castle, Johnson, Ehlers, Keller, 
Carter, Burns, Kildee, Andrews, Hinojosa, McCarthy, Tierney, Holt, Grijalva, Majette, Van Hollen, 
and Bishop.

	Staff Present: Kevin Frank, Professional Staff Member; Alexa Marrero, Press Secretary; 
Alison Ream, Professional Staff Member; Deborah L. Samantar, Committee Clerk/Intern 
Coordinator; Kathleen Smith, Professional Staff Member; Charles Barone, Minority Deputy Staff 
Director; Ellynne Bannon, Minority Legislative Associate/Education; Ricardo Martinez, Minority 
Legislative Associate/Education; Alex Nock, Minority Legislative Associate/Education; and Joe 
Novotny, Minority Staff Assistant/Education. 

OPENING STATEMENT OF CHAIRMAN JOHN BOEHNER, COMMITTEE 
ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, DC.

Chairman Boehner.  The Committee on Education and the Workforce will come to order.  We are 
holding this hearing today to hear testimony on the "State of American Higher Education:  What 
are Parents, Students, and Taxpayers Getting for their Money?

	Under committee rule 12(b), opening statements are limited to the chairman and ranking 
member.  If other members have statements, they will be included in the hearing record.  And with 
that, I ask unanimous consent for the hearing record to remain open for 14 days to allow member 
statements and other extraneous material referenced during today's hearing to be submitted for the 
official record.  Without objection, so ordered.

	Let me welcome our witnesses here today and thank them for taking time to come before 
the committee and continue the discussion about the higher education reauthorization and its four 
guiding tenets:  accessibility, accountability, affordability, and quality.

	We began the conversation about the reauthorization of the Higher Education Act in the 
107th Congress.  We sent a request for proposals to the postsecondary education community and 
received hundreds of proposals, which are currently under review.  While the process will take time 
to complete, this hearing will serve as a kick-start to an important dialogue.  It is clear that for 
nearly 40 years, the Higher Education Act has been the vehicle that has opened doors of 
postsecondary education opportunity to all Americans.  However, reauthorization should not be a 
rubber-stamp process.  We need to be open-minded and leave the old territorial issues at the door.  
So this reauthorization should be a time to move outside of our own comfort zone and ensure that 
the best policy is enacted.

	This Congress and this administration have made a firm commitment to education.  
Currently, according to the College Board, the federal government provides over 70 percent of 
direct aid to postsecondary education students, amounting to nearly $65 billion annually.  However, 
I am most interested in learning more about what institutions can and should be doing to assure the 
American people that their investment in higher education as a student, a parent, or a taxpayer is 
one that will produce results and assist with lifelong career pursuits.

	Accountability is the hub of the higher education wheel.  Previously mentioned tenets, 
accessibility, affordability, and quality are the spokes that keep the wheel in motion.  Before we 
move the reauthorization legislative vehicles through the House, I want to explore how 
postsecondary institutions are accountable to students, parents, and taxpayers.  I am aware that 
institutions report volumes of data to the federal government and others, but I guess the question I 
am asking myself:  Does that reporting provide valuable accountability?  Moreover is the data 
reported the right data, is it enough data, is it too little data or far too much data?

	And I have learned in some States, public colleges and universities require their students to 
take basic skills assessments before, during, and after their degree program.  Assessment results 
provide the higher education system, the State and policymakers, students and families, with 
tangible results about the quality of the education provided.  These results help families make 
important decisions about their investment in postsecondary education.  In many instances these 
assessment results also help States make performance-based funding decisions about the public 
institutions.  And I am interested in hearing about the opinions of the witnesses here today on the 
value of this type of assessment.

	The increasing costs of postsecondary education dictate that institutions provide some 
degree of outcome results to the American people.  The College Board reports that the average 
tuition at a 4-year public institution is now over $4,000, an increase of 9.6 percent over last year.  
An average tuition at private colleges and universities is over $18,000, an increase of 5.8 percent 
over last year's average.  These increases exceed the rise in the Consumer Price Index by 8.4 
percent and 4.7 percent respectively.  Tuition fees began to grow much more rapidly than the 
Consumer Price Index beginning in the early 1980s, and these increases really haven't slowed 
down.  The intense rising costs of postsecondary education concerns me.

	Many parties invest their resources in postsecondary education.  Federal government, State 
governments, students, parents, taxpayers and employers, and obviously many parties have a stake 
in higher education as graduates appropriately fuel our nation's economy.  How, then, can 
institutions provide all of the stakeholders with an assurance that the investment made in 
postsecondary education will be returned to them in the form of a strong, viable, and educated 
workforce?  Our panelists can discuss this issue with us today.

	And, finally, it is clear to me that all of these issues are closely connected.  What is the 
federal role in ensuring access, affordability, and quality?  As Mr. Pat Callan, President of the 
National Center of Public Policy and Higher Education stated during last month's meeting of the 
Advisory Committee on Student Financial Assistance, "A solution where institutions of higher 
education take no responsibility is not a viable.  Postsecondary education cannot take the view that 
they can raise their prices until they are able to pay for what they need, and then rely on the federal 
government to step in and provide enough funding for every student to attend."

	Therefore, it is important that we proceed in the reauthorization process with a broad 
discussion of these crucial tenets:  accessibility, accountability, affordability and quality.  And I am 
looking forward to the testimony of our witnesses so that we may identify specific strategies and 
proposals about these key issues.

	Let me now yield to our Ranking Member of the Subcommittee on 21st Century 
Competitiveness, my good friend from Michigan, Mr. Kildee.

WRITTEN OPENING STATEMENT OF CHAIRMAN JOHN BOEHNER, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, 
WASHINGTON, DC. - SEE APPENDIX A

OPENING STATEMENT OF REPRESENTATIVE DALE KILDEE, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, DC

Mr. Kildee.  Thank you, Mr. Chairman.  I am pleased to join you and Chairman McKeon at today's 
hearing on higher education.  Having led efforts on this side of the aisle in the last reauthorization, I 
am looking forward to strengthening our nation's higher education programs.  Today's hearings will 
provide us with very valuable insight as we develop what I hope will be a bipartisan agenda for 
reauthorization.

Mr. McKeon and I wrote a very good bill in 1998.  We enjoyed both the bill and the process 
involved with putting that bill together.  Federal student aid through loans or need-based grants 
have become an essential component of ensuring access to higher education.  We must have 
student loans at interest rates that do not cloud the future of our students.  Without this, many of 
them would be unable to finance their college education.  Without need-based grant programs, such 
as Pell grants, many of our most disadvantaged students would never benefit from a postsecondary 
education.

	We also need a strong focus on early intervention to ensure disadvantaged and first-
generation students realize college is an achievable goal.

	All of these issues raise the importance of access.  Discussion over accountability, 
accreditation, and grant aid to institutions are meaningless if we cannot ensure that everyone who 
achieves and has the desire can indeed go to college.

	Access to a postsecondary education shall remain our most important goal during this 
reauthorization.  I can go back to my own case.  My mother and father raised five children.  My 
dad had to make a decision.  He decided he could afford to send one of his children to college, and 
for some reason he chose me.  I have told my siblings I don't think I was the smartest one but he 
chose me, and it is a terrible decision when all of my siblings certainly would have qualified for 
college, save for one fact.  Financially, my parents were unable to pay for all of us to go to college 
in those days.  So access is a very, very important issue.

	Unfortunately, too many of our students accrue crippling amounts of debt once they leave 
college.  And Pell grants have lost the buying power they once had.  So this leaves students with 
little recourse but to borrow to finance their education.  Students are really mortgaging their future 
by going to college before they ever have the opportunity to acquire a mortgage for a home.  

	As a part of this reauthorization, we need to ensure that students have manageable debt 
levels when they graduate or leave school and have favorable consolidation and repayment options.

	Part of any discussion on loan debt brings us to the issue of college costs.  College costs are 
becoming an increasingly critical issue for students and their access to postsecondary education.  
As a committee we must discover the root causes of these increases.  We must also provide 
assistance and direction on how to ensure a college education remains affordable.  Part of this 
solution may be to encourage cooperative agreements between universities for purchasing and 
services and ensuring the federal government provides sufficient need-based aid.  And finally, we 
must make sure that States are keeping their commitment to higher education, even in these lean 
budget times.

	The State of Michigan and, I am sure, the State of Texas have financial difficulties 
financing higher education now and that places an additional burden upon the students because that 
generally means tuition increases.  We should not, however, rush to find solutions that may have 
the unintended consequences of hurting students.  Placing restrictions on which university students 
can attend due to increases in tuition freezes out students who depend on Pell grants and student 
loans.  In addition, such a proposal would have the negative consequence of driving those students 
into the marketplace for private loans with less favorable rates.

	Lastly, I believe we need to be careful as we consider proposals for increased accountability 
in higher education.  We need to examine what we demand of colleges and universities both on 
their performance of their students and the quality of life on college campuses.  We need to do this 
before we demand additional information.  We should be striving to give consumers access to 
information that can help them make a decision what school is best for them or for their family or 
for their financial resources.  We must also ensure that the system is providing students with the 
knowledge and skills they need to enter college rather than relying on remedial courses.


Mr. Chairman, I want to close by thanking you for having these witnesses here today and look 
forward to the testimony.


Chairman Boehner.  Thank you, Mr. Kildee.

	We will introduce our witnesses.  And to introduce our first witness, let me recognize the 
gentleman from Texas, Mr. Carter, who will introduce Mr. Miller.

Mr. Carter.  Thank you, Mr. Chairman, and thank you for this opportunity to introduce a man who 
has given a great deal of time and effort throughout his life to the improvement of education at the 
secondary and postsecondary level.

Mr. Charles Miller is the chairman of the University of Texas Board of Regents.  Mr. Miller 
was appointed to the board by our then Governor George W. Bush in 1999, and was named 
chairman in 2001.  Professionally he is the chairman of Meridian National Inc., a private family 
investment partnership based in Houston, Texas.  Mr. Miller is an expert in the areas of monetary 
affairs and their effects on securities markets.  He is also involved in promoting the vital 
relationship between business and postsecondary education.  Mr. Miller is a former chairman of the 
Texas Educational Economic Policy Center, the Governor's Select Committee on Public Education, 
and the Capital Formation Committee of the Governor's Task Force on Texas Business 
Development and Job Creation.

	Additionally, Mr. Miller is a leader in the effort to develop accountability standards for 
public schools in our State of Texas, and those efforts contributed significantly towards the 
education reform legislation Texas Governor George W. Bush signed in the 1990s.  That Texas 
framework led to dramatic improvements in K-through-12 education performance in Texas and 
became the foundation of 2001's No Child Left Behind Act.  It is my honor to introduce Mr. 
Charles Miller.

Chairman Boehner.  Mr. Miller, we are glad you are here today.  Let me introduce the rest of the 
witnesses and then we will begin.

	Our second witness is Dr. Mary Ellen Duncan.  She is the president of Howard Community 
College in Columbia, Maryland.  In cooperation with the members of the board of trustees of the 
community college, she formed the Commission on the Future of Howard Community College to 
explore how the institution can meet the educational needs and interests of her region.  Welcome.

	And our third is Dr. Frank Newman.  He is the director of the Futures Project, a higher 
education think tank based at Brown University in Providence, Rhode Island.  He serves as a 
visiting professor at Brown and at the Teachers College at Colombia University.  He previously 
served as president of the Education Commission of the States, a national nonprofit, nonpartisan 
organization that helps governors, legislators, and other State education leaders develop and 
implement policies that improve education.

	In addition, Dr. Newman served as president of the University of Rhode Island for some 
nine years.  We welcome you, doctor.

	Before the witnesses begin, I would like to remind the members that we will be asking 
questions after the entire panel gives their testimony.  And under the committee rule, each of you 
has five minutes to present your testimony.  Your written testimony can be submitted in full.  And 
as long as you are anywhere close to five minutes will be nice. 

Chairman Boehner.  With that, Mr. Miller, you may begin.


STATEMENT OF CHARLES MILLER, CHAIRMAN, UNIVERSITY OF 
TEXAS SYSTEM BOARD OF REGENTS, HOUSTON, TEXAS

Mr. Charles Miller.  Thank you for the invitation.  I am chairman of the Board of Regents at the 
University of Texas System, its nine academic institutions and six medical institutions, about 35 
percent of the 4-year academic students in the State of Texas, and the major part of academic 
medicine and a major part of the health care system of Texas.  I have been on the board of regents 
for a number of years, and during that time I focused on education and accountability both in public 
school where we can do the work from the higher education system and now in higher education 
accountability.

	Because I have been involved in that for a good part of the last 15 years in Texas, education 
accountability at the public school level, it was natural for me to do that at the higher education 
level also.  There is a certain amount of accountability built into the higher education system today 
with professional fields; engineering, accounting, law and medicine have some very structured 
accountability processes.  The accreditation process has some form of accountabilities inherently 
contained in it also.  However, there is a great opportunity for this accreditation process to enhance 
accountability and it would be productive for the signal to come from the federal government.  
There is also a significant amount of information that the chairman said that is reporting on broad 
institutional performance within institutional State and federal structures.  However, this 
information is rarely reported, used by policymakers.  It lacks uniformity.  It is inadequate in some 
aspects.  It requires no feedback or reaction from the institution and their policymakers.  And it is 
so voluminous so as to swamp the system, making it meaningless, yet allowing institutions to say 
we are making a huge amount of information available.

	So in higher education, there exist some forms of accountability.  However, they rarely 
address directly the public policy agenda, teaching and learning, research effectiveness, community 
service, or to answer the question posed by this committee:  What are parents, students, and 
taxpayers, what are they getting for their money?

	When it comes to learning, the academy falls short on measuring it, even in the most 
fundamental parts of the curriculum, reading and writing, fundamental mathematics, basic sciences 
or social sciences or in preparation for work, post-graduation.  There is clearly great inflation, 
softening of the curriculum.  A piece of paper, a degree, has become less significant as a measure 
of learning.  Even achieving better graduation rates, which we all admit is an important goal, tend 
to encourage lowering of academic standards.  Academia is highly resistant to using standardized 
tests to measure student learning, even those tests that are widely used for admission to the 
Academy graduate programs.

	In the University of Texas System, we are undertaking a pilot assessment project, which 
will include testing of general academic knowledge and skills in writing, math, reading, and critical 
thinking.  Ultimately we do this assessment at all nine of our academic institutions.  We can expect 
great reluctance from the academy about measuring student learning.

	I have some reasons and some arguments that I will make.  I will skip those and be 
delighted to tell you some of those and you will hear more, I am sure.  I am not recommending a 
national curriculum.  However, some standardization of the process in measuring student learning, 
especially in the freshman and sophomore years, could be encouraged by policymakers and should 
be.

	I have three recommendations I would like to make very quickly:

	Applying national leadership to focus on a policy-driven, accountability-oriented data set to 
include public and private institutions; no commissions, no studies.  This is more of a ready, fire, 
aim approach.  We need to get something on the table to say this is the data set and then debate 
whether it is the right data set and how to use it and so on.  Otherwise we could extend this 
discussion indefinitely.

	We could establish a national competitive grant program and test a strategic policy-oriented 
framework to measure student learning at the undergraduate level, using one or two cross-academic 
institutions.  It could do that by getting individual institutions or consortium to bid for grants.

	And, third, integrating results-oriented accountability measures in the accreditation process 
would be very, very helpful.


Mr. Chairman, members of the committee, thank you for the opportunity to speak to you today and 
I will be glad to try to answer questions.  Thank you.

WRITTEN STATEMENT OF CHARLES MILLER, CHAIRMAN, UNIVERSITY OF TEXAS 
SYSTEM BOARD OF REGENTS, HOUSTON, TEXAS - SEE APPENDIX B

Chairman Boehner.  Dr. Duncan, you may begin.

STATEMENT OF DR. MARY ELLEN DUNCAN, PRESIDENT, HOWARD 
COMMUNITY COLLEGE, COLUMBIA, MARYLAND

Ms. Duncan.  Thank you, Mr. Chairman, and members of the committee.  My name is Mary Ellen 
Allen Duncan and I am president of Howard Community College in Columbia, Maryland.  I am 
representing the American Association of Community Colleges, which has as members virtually all 
the country's 2-year public regionally accredited institutions of higher education.  The work of this 
committee has a substantial impact on college students and prospective college students.  For 
millions of Americans, the federal student aid programs crafted by this committee have meant the 
difference between economic success and failure.

	The fundamental goal of the Higher Education Act is to ensure that a lack of resources does 
not prevent a single qualified individual from attending college.  This goal should continue to guide 
the work of the committee.  Congress should take pride in the fact that federal student aid has 
opened the doors of college to so many.  In 1973 when the Pell grant program was first 
implemented, the college continuation rate was 47 percent.  By 2001, the rate had jumped to 62 
percent.  Nearly 5 million students receive Pell grants each year and another 6 million receive 
loans.  Federal student aid represents the bulk of all available student aid and higher education 
would be immensely inferior without it.  However, the job is not yet done.  The unfortunate reality 
is that more affluent students still attend and persist in college at much higher rates than financially 
disadvantaged individuals.

	The American system of higher education is a huge success story.  The economic and 
productivity gains that it fosters have helped to make our economy the worlds largest and kept it 
competitive.  Higher education is our sixth largest net export.  Community colleges are proud of 
their role in providing thousands of highly skilled individuals each year in nursing, information 
technology, first responders, and in many other areas.

	The economic benefits of higher education translate into more than $750,000 in increased 
lifetime earnings for those who possess only a baccalaureate's degree compared to those compared 
to those who have just a high school diploma, and 335,000 for those who have an associate's 
degree.

	College remains by far the best investment most people will ever make.  This committee is 
rightly focused on college affordability as rising tuition generates huge worries as well as practical 
financing challenges.  However, college remains affordable.  Average community college tuition 
fees are now $1,735, while the average public college tuition and fees are about $4,081.  Nearly 80 
percent of the nation's students at nonprofit colleges attend these schools.  Private colleges provide 
enormous amounts of institutional aid to enable a broad spectrum of students to attend.  The total 4-
year cost of tuition and fees at a 4-year public college is just about two-thirds the average cost of a 
new automobile.

	Community colleges do everything within their power to keep tuition as low as possible.  
Low tuition enables access.  Access is the centerpiece of our mission.  Last fall, in the midst of 
extraordinary budget cuts that have continued, community college tuitions rose by an average of 
7.9 percent.  Over the previous 6 years, however, they increased by an average of just 2.2 percent.  
The recent spike was a direct byproduct of reductions in State and local funding.  In many places, 
the increases were undertaken only after budget reducing steps were taken, such as widespread 
layoffs, hiring freezes, reduced program offerings, larger classes, deferred computer, library, and 
infrastructure expenditures.

	I don't like to say it, but we expect tuition increases to be just as high or higher this fall 
because community college State and local funding is in a free-fall.  Still, students get a great 
bargain at community colleges.  On average, tuitions represent only 19 percent of community 
college overall revenues, while State funding supplies more than twice that amount.

	For many of us, this is also a time when our enrollments are higher than ever.  Please be 
assured that the increased student aid funding does not cause higher tuitions.  For example, 
between 1995 and 1996 and 2000 and 2001 academic years the Pell grant maximum increased by 
$1,410, and for that our students thank you.  And also during this time, the HOPE scholarship tax 
credit of $1,500 came on line.  Over the same period, community college tuitions and fees rose by 
just $278.  It would never occur to us to raise tuition because need-based student aid has risen.  
Rather, the aid increases bolsters access to our colleges as enrollments have surged nationwide.

	I realize that my time is up, so in the questioning I will talk about accountability.  I am sure 
that will come up.

WRITTEN STATEMENT OF DR. MARY ELLEN DUNCAN, PRESIDENT, HOWARD 
COMMUNITY COLLEGE, COLUMBIA, MARYLAND - SEE APPENDIX C


Chairman Boehner.  Thank you, Dr. Duncan.

Dr Newman.

STATEMENT OF DR. FRANK NEWMAN, DIRECTOR, THE FUTURES 
PROJECT, BROWN UNIVERSITY, PROVIDENCE, RHODE ISLAND

Mr. Newman.  Thank you, Mr. Chairman and members.  The Futures Project that, as you know, I 
have been heading, has been focused on the transition that is underway in higher education, as it 
becomes a much more complex and market-oriented system.  And we have been looking at it not 
only in the United States but also across the globe, and one thing about it, the tough questions you 
are raising are being raised right across the globe.  Country after country, we see the same issues 
and questions coming up.  While it is true and I would argue that higher education has not been 
aggressive enough in responding to these questions as yet, compared to the rest of the world, 
American higher education looks good.

	If you think American universities are recalcitrant, try German, for example.  As it is, the 
universities and colleges are coming under a great deal more scrutiny partly because higher 
education has become so central to society, not only to the community and to the States in terms of 
workforce and civic preparation, but to individuals as a ticket in participating in the good life, the 
middle class; but it has also become more costly.

	And a series of flaws have become much more evident and I will quickly name them.  We 
are concerned about the outcomes that have come up here before.  Are students learning what they 
need to learn?  And there is now more and more evidence that yes, in general; but there are some 
major holes in what is going on in math and science and other issues that need attention.

	Secondly, the institutions have been focused on taking the responsibility for learning.  And I 
would say the answer is we tend to blame failures of learning on the student rather than taking 
responsibilities ourselves.  The completion rates that Dr. Duncan mentioned are an important issue.  
Overall completion rates aren't anywhere near good enough.  But the completion rates for low-
income students are truly an issue that needs to be addressed.  Something on the order of 8 percent 
of students in the lowest quintile ends up getting degrees within about 10 years.

	And then, finally, costs.  And costs continue to rise principally because we have simply not 
devoted the energy and attention to these issues.  Are these issues possible to resolve?  The answer 
to each of them is absolutely.  We have workable answers for each of these.  It is not a question of 
whether we can figure out how to improve retention and graduation rates and the academic 
achievement of students, even the lowest-income students.  There are institutions out there doing it 
very effectively at the moment.  The same is true with learner outcomes.  The problem is getting 
around to doing something about them.  What can be done?

	The first thing important to recognize is there is a fundamental change going on at the State 
level.  States are increasingly working with their institutions, negotiating with their institutions to 
move them much more toward a market, much more toward autonomy, but at the same time 
negotiating with them to create much more exact and discrete measures of responsibility and 
accountability.  And this is happening right across the globe, and it is happening in every country 
we have been looking at, but it is happening more and more in States.  The States are looking 
toward the kind of market forces coming in as a vehicle for encouraging some of the changes for 
which you are concerned.

	For example, if the regulations that have been in place so far haven't been effective in 
getting institutions to focus on costs, can the market pressure do that?  Given that the States are 
engaged in such a process and that the system is becoming much more sort of a supermarket of a 
variety of institutions, public, private, for-profit, virtual institutions, all competing increasingly in 
this circumstance, what can the federal government do?  First of all, it ought to recognize that the 
States have that responsibility of solving the structural questions of higher education.

	I would argue the State could do three principal things:  One is better information.  Mr. 
Miller has already touched on that.  But I think it is evident that markets work best when good 
information is there, and this is a place where we have a huge need for better information.  And I 
agree it is not more information, it is better information, it is reliable information, it is meaningful 
information, and it is regular availability of it.  Learner outcomes are the principal issue there.

	The second thing is learning to use competitive grants.  The federal government's huge 
success story in higher education is the funding of academic research.  We did not have a 
leadership position in academic research until after World War II when the federal government 
began federally funded peer review competitive grants.  We vaulted from the back of the pack to 
the front of the pack and we have been at the front of the pack ever since, and it works.  That 
principle of using competitive grants in the other two major areas is something that deserves 
exploration.

	And finally, we need to focus, as the federal government always has, on the less advantaged 
students.  And that is several things.  It is not student aid alone; that is essential, but it is not 
enough.  Students need more than access.  They need support as they get into the process and as 
they go through the process.  And all of these, I think, are doable, but I think it is an urgent matter 
to get at them.  Thank you.

WRITTEN STATEMENT OF DR. FRANK NEWMAN, DIRECTOR, THE FUTURES 
PROJECT, BROWN UNIVERSITY, PROVIDENCE, RHODE ISLAND - SEE APPENDIX D

Chairman Boehner.  We thank all of our witnesses for their excellent testimony and thank them 
for really focusing in on the point that we are trying to get at in this hearing.  Many of us in this 
room got ourselves a college degree through all types of means.  Members heard me say I am one 
of 12 children in my family, and my dad owned a bar.  Going to college was never an issue; I mean 
it was never discussed.  And somehow along the way I decided I was going to go to college some 
way, shape, or form, and I struggled through many different ways and finally got there.  But I have 
always said no child should have to go through what I went through, and I am sure what many of 
you went through, in order to seek a higher education.

	Before I get into the questions, there are really several big points that we have talked about.  
Accessibility.  That is clearly what the federal government has done best in terms of what we do in 
the Higher Education Act.  But our concern is that with these rising costs, tuition, fees and other 
support programs, that I feel like the more we do, the further we are falling behind.  And if we are 
going to continue to be successful in the one goal of providing more access, how do we do it?  How 
do we continue to do that in the face of ever-rising costs of tuition and fees?  And I guess I will 
start with you, Mr. Miller.

Mr. Charles Miller.  I believe that affordability is one of the key current questions.  I think unless 
we resolve that, we are heading for a train wreck in plain terms.  Accessibility, affordability, and 
accountability are all integrated.  You can't have a productive institution or one, which will correct 
itself or change itself like we are trying to do with public education if there aren't any measures of 
how it is performing.

	Higher education, in order to learn to produce better results or more productivity or more 
efficiency or applications or technology, has to have some ways to measure how well we are doing.  
There aren't any broad regular or accepted measures today, and there is a resistance to do that.  
Affordability in a system, which is highly subsidized, becomes something like an entitlement, 
which we have, in public education.  We have also had it in medicine.  This looks a little bit like 
medicine.  It is regulated; it is subsidized.  There is not a lot of transparency or accountability.  So 
it is very hard to correct it.  And we tend to do it just the way we have done it in the past:  talk 
about it, and then continue to do it.

	So I think what the federal government could do to help transform it would be to get some 
accountability and reporting data measures of learning in the system to help it correct itself.  I am 
not recommending federal regulation or formal intervention, but something about the way we fund 
it tends to make it more of an entitlement:  Give people more money and then go off and do it again 
the same way.

	I think we are past that time and we can't do that with a subsidized regulation, 
unaccountable, entitlement type program.

Chairman Boehner.  Dr. Duncan, before you respond, I certainly understand the issues facing 
public institutions in the economic crisis that many of the States, virtually all of the States are in, 
but I just wanted to get that on the record.

Ms. Duncan.  I appreciate that a great deal because certainly right now in Maryland, for instance, 
the State support levels are going to be back in the 1998 levels in terms of support per student.  So I 
think affordability often fluctuates because of State support and institutions at our State support.  It 
is an area that is discretionary money in terms of State budgets.  It isn't an entitlement in the sense 
that you can count on that money from year to year.  If there are difficulties in State budgets that is 
the one area that governors can make cuts.  So higher education is often the first place to cut in 
difficult times.  I think if you were to look at the relationship between tuition and State support, you 
will see exactly the relationship.

	On the other issue of accountability, I think this is something that community colleges and 
all colleges in higher education should embrace because obviously it only improves us to know 
more about what we do.  There are levels already in States.  The Higher Education Commission, 
for instance, in Maryland has State indicators we must report on and they are always being refined.

	Additionally, let us take nursing.  All students in the nursing program, whether in 2-year or 
4-year schools, take a licensing exam at the State.  And the 2-year nurses do just as well.  And so 
we have a very clear measure.

	There are lots of third-party evaluations in the technologies, for instance, third-party 
vendors that do evaluations.  So there are lots of measures.  And of course programs differ from 
institution to institution.

	But I think this idea of funding research should extend to faculty whose job is teaching and 
the research is focused on learning outcomes for that faculty.  I think, that is, that the idea of a grant 
to permit faculty in community colleges to be supported to conduct that kind of research would be 
very positive.  We have that going on in our institution now.  We fund it because we think it is very 
important that faculty do test to see whether or not there are different methods that achieve 
different results.  So instructional research is a different kind of research, one that has never been 
paid attention to, but one very useful in getting at this issue of accountability.

Chairman Boehner.  Dr. Newman, as you answer the same question, you referred to one of the 
goals would be the competitive grants, and you referred to the two other areas; if you could 
elaborate on that.

Mr. Newman.  In higher education it is customary to talk about three big areas of activity:  
teaching and learning, research and scholarship, and service to the community, with that bringing 
the fruits of the knowledge of the institution, for instance, community colleges do a tremendous 
amount of help, such like corporate training.  In the two other areas, teaching and learning and 
service, we have had some experience with using competitive grants and they work beautifully.  
The federal government is a much better place to do this than the States.  In the States the money is 
close enough to the institutions and the institutions are skilled enough so that what happens when 
you get a good competitive grant program, for example, on improving the effectiveness of 
teaching, the institutions have lobbied hard and have done this over and over again and get it turned 
into formula funding.  The federal government is far enough away, and see if this is a nice way to 
say this and the Congress is remote enough.

Chairman Boehner.  You don't have to be that polite.

Mr. Newman.  Well, it is hard to get to you guys, and the competitive funding stays in place.  And 
in research we literally have the success of the world.

Chairman Boehner.  Most of my colleagues wouldn't think we are that far removed from our 
constituents.

Mr. Newman.  Can I go back to your question on access, to make it a little more complex than 
your question, if you don't mind?  If you look back at the State of the State addresses this year, you 
find that every governor said we need to improve access, have a bigger share of population get to 
college, because we need it to build our economic development in our State.  And that is a powerful 
argument.  The trouble is that the only way at the moment you can expand access is go deeper into 
the pool.  You can't get more rich kids or middle class kids going to college, because they are all 
going.  We have to get a bigger share of the population, meaning you move to less advantaged 
students.

	Right now, less advantaged students, over a third, when you get to the people coming in at 
the bottom end of academic credentials, over a third drop out during their first year.  Before we talk 
about expanding access, we ought to talk about fixing the results of the access we have.  And we 
know how to do it, and we can do it, and unfortunately it takes some costs.  It is not huge, but you 
have to provide a different kind of support and really effective programs.  But when you do it, you 
can get graduation rates that are as high and education attainment that is as high as the average for 
other students.

Chairman Boehner.  Before I recognize Mr. Kildee, if you would be kind enough to submit some 
additional testimony on helping those at the lower economic level better increase their chances of 
staying in school, I would appreciate it.

	
ADDITIONAL MATERIAL SUBMITTED BY DR. FRANK NEWMAN IN RESPONSE TO 
CHAIRMAN BOEHNER'S REQUEST - SEE APPENDIX E

Chairman Boehner.  And, Mr. Miller, you talked about a data set; and if you have some ideas on 
what this data set that would be more appropriate than what we are doing now, I would appreciate 
that.

Now I recognize my friend from Michigan, Mr. Kildee.

Mr. Kildee.  Thank you, Mr. Chairman.  The issue of college costs has received increasing 
attention in recent years, and recently a proposal was announced that would prohibit students from 
using their Title IV aid at institutions of higher education, where tuition has increased by twice the 
rate of inflation.  That was a proposal made informally a couple weeks ago that would effectively 
bar students that need loans and aid from attending certain institutions because their tuition has 
increased over twice the rate of inflation.

	Let me start with you, Mr. Miller, and go down the row.  Is this the proper area for the 
federal government to get involved?

Mr. Charles Miller.  Yes, sir, it is.  I think there is a cost pressure problem.  There are a couple of 
reasons for it.  One is that institutions themselves don't have much of a governor when it comes to 
costs.  They are not the normal kind of productive institutions.  We do not necessarily want them to 
be the same, say, as a business that cuts costs.  So there aren't any ways to trigger that kind of 
efficiency.

	I think we could do some things that we are talking about in the way of producing 
information that would help them make those changes or encourage it.  If I were in the place of 
spending money, I believe I wouldn't put any funds on the table or add any growth to any of these 
programs without getting some of these sets of information and performance indicators in place.  
And I would ask the community of academia to do that.  Costs are not only tuition and fees.  We 
charge x number of dollars for tuition and fees and about 50 percent of that goes back to students in 
financial aid.  So even though we have a relatively low tuition and fee level, we already give back 
half of the financial aid, and it is usually need-based.  Some of it is merit-based.  And then by the 
time you add potential student loans of all kinds, including federal, it makes up the whole amount 
of tuition and fees.

	So for a student to come to the University of Texas, they pay no tuition and fees.  We 
subsidize them from many other sources.  We are trying actually to broaden the sources.  State 
money does, research grants do, and private contributions, endowment earnings, and services we 
give.  So the better we can diversify, we feel, the better the system would be.  But the real cost for 
that student is the living cost and room and board and the time taken.

	And there is a third cost that almost never gets in the equation, which is how long it takes to 
do that.  If the State is paying 20- or 25,000 to educate the student, charging the student just a 
fraction of that, but the student's earnings could be 25,000, the cost for that student to stay in school 
another year for society is about $50,000.  The real costs have to do with things other than tuition 
and fees.  You are dealing with those in some of these programs, but unless we get deeper into the 
cost structure and how these institutions operate, we won't really fix the affordability side.

	And access is part of that.  But, again, the best place to fix access; because we have a higher 
portion of people in that demographic group, 18 to 24, going to universities now than we have ever 
had.  It has been growing gradually.  That is part of what has been putting pressure in place.  More 
people want to go, more people are ready to go.  It pays economically more to go.  It is very clear 
when we are in a weak economy, people are encouraged to stay in school longer and those put cost 
pressures on the system.  The best place for access is in K-through-12.  If we prepare students for 
college, and we are not always doing that as well as we should, they will get to the higher 
education system.  Then we have to be prepared to educate them.  But we are not doing as well in 
K-through-12 with access for the low-income students.

Mr. McKeon.  [Presiding.]  Ms. Duncan.

Ms. Duncan.  On the subject of affordability, community colleges still have very low tuition and 
still a small percentage of our overall costs.  Generally speaking, one fifth of the cost is provided by 
tuition.

	On the subject of access and affordability, I think that, as you know, community colleges as 
open admission institutions take the challenge seriously of trying to actually be sure that the 
freshman student goes on to be a sophomore student, and that is certainly a costly challenge 
because they may or may not come prepared as they should come.

Mr. Kildee.  Let me try to get to the essence of my question.  Is this a proper role for the federal 
government to get involved?  In other words, to say you cannot use your Pell grant, your student 
loan, at a university where the increase in tuition has been twice the rate of inflation, is this proper 
federal law?

Mr. Duncan.  Not unless the federal government can control what the State does in terms of 
providing funding.  I mean, otherwise at Howard Community College, access would be cut off, 
because I couldn't serve the students that needed to be served.  If I didn't have any flexibility in 
terms of how to raise revenue, if State and local entities aren't going to provide revenue, and yet 
your mission is to serve the people in your community, your only option left is tuition.

Mr. Kildee.  Mr. Chairman, could I ask Mr. Newman to comment.

Mr. McKeon.  No.  No.

Mr. Kildee.  It was his proposal.

Mr. Duncan.  And I do respect the Congressman's proposal and I love the intention in terms of 
keeping costs affordable.  And it is certainly part of something we would like to do most of all and 
be sure we never raise tuition.  If it were possible and if there were incentives to keep the States 
from bailing out on us, we would love that, yes.

Mr. Newman.  Mr. Kildee, I appreciate the heads-up on that as to whose proposal it was.  I think it 
is a subject that is not completely out of bounds for the federal government, or I think it is the 
wrong approach.  I don't think it can work, at least not effectively, in the sense that the States are 
already manipulating a whole set of variables around this.  In some cases they are doing drastic 
things to the basic support of the institution, which is forcing increases in tuition.  In other cases, 
they tried all kinds of regulatory approaches to try to control tuition increases.  And the basic 
answer is if you look back over the last 20 years is that they failed.  They haven't worked.  They 
have sometimes stopped tuition increases for a period of time, but they have caused other problems 
to appear elsewhere and eventually they get abandoned.

	My own sense of getting costs under control is extremely important.  It is absolutely 
essential.  We obviously can't continue to expand the numbers of people going to college if the 
costs keep rising at rates of two or three times the rate of inflation, and, more importantly, at rates 
that far exceed the growth in personal income.  But I don't think this is the way.  I think there are 
other ways we are going to have to deal with it.

	Does that mean I am finished testifying?

Mr. McKeon.  No.  Mr. Carter.

Mr. Carter.  Mr. Miller, would you expand a little bit, and we talked a little bit at lunch about your 
ideas about the accountability standards as they would reflect to the undergraduate student.

Mr. Charles Miller.  I think there is a sense from the graduate students that they get the least 
capable instructors.  They are not sure that the foundation that they get to go to the higher level is 
what they need.  When they get into the workforce, there is a lot of evidence and surveys that the 
business community is not satisfied with what has been taught.  There are issues even about the 
communications skills of the people who teach it.

	I don't have any problem with any of the things that universities do, and I wish they would 
do it any way they want, but there ought to be some measure of the learning experiences, 
particularly at the freshman and sophomore level.  What we teach in the first two years of college is 
about as widely accepted as what we intend to do in the fourth grade.  There ought to be some 
encouragement by the federal government just to measure the learning experience of people in 
those early years in college and at least some measure created by the Academy, and then over time 
we can see what really measures.

	It would be fairly simple to take tests, measure a freshman in certain subjects with tests that 
are already created, measure what they learn in the first year and in the second year, and at least 
know what that institution or that class or that academy was able to impart.  It can be done 
individually.  It doesn't have to be a fixed amount for any institution.  Anything like that would be a 
better system than we have today, which is basically no transparency at all.  We don't know what is 
being taught and what is being learned.  We trust an Academy that is under tremendous cost 
pressure with very little oversight.  Up to a certain point, that was okay, but the community at large 
won't accept that.  Over time with the cost pressures, it is going to be the Russian fruit store model.  
We are going to keep the prices down, the quality will disappear, the lines will be long, and 
eventually there won't be any food.

	And that is what is happening in higher education.  We are pushing quality down by having 
these cost pressures and we need to know what the quality is to decide how to deal with it.  The 
federal government should intervene with tuition aid and other spending, not intervene in the sense 
of directing or regulating or controlling.  To just ask the question:  What is it that we are getting for 
those dollars that can affect the behavior of the institutions getting the money or the students who 
are going there?  Why shouldn't it do that?  I think if it doesn't do something about it, then there 
won't be any other intervention in the cost side.  What will happen over time is that we will have a 
separation for the richer and higher-quality or elite schools over time, and we will get sort of a 
dumbing-down of the rest of it because there will be some set of people that can pay anything at 
any time.  But if we keep pressure and we don't have some way to get the system more productive, 
that system will deteriorate in quality over time, I think.

Mr. Carter.  Dr. Duncan, presently, we hear more and more about students that come to colleges 
and universities and have to start out by taking remedial classes.  And I hear comments that the 
remedial classes drive up the length of time you are going to be in school.

	Is it possible for someone to start in school, taking almost remedial classes to get up to the 
level where they should be to do college work, and maybe take one or two semesters before they 
actually get to where they are doing college work?  Do you have any comment on that system and 
what we can do to improve that system?

Ms. Duncan.  You are absolutely right that colleges, particularly community colleges, do test 
students when they arrive to see what their skill levels are in English, math, and reading; and if they 
have deficiencies and are not ready for college-level work, they could take one class or one 
semester, or, just as you said, take two semesters, which happens in some cases.

	There are complex reasons for that.  In some cases they come directly unprepared from high 
school.  The college-level requirements are different, for instance, in math than the high school 
requirements for graduation.

	Because there is this gap between one set of requirements and another, students pay the 
price by having to take additional work at the pre-college level.  In community colleges, it is much 
more complex, because people come back from being out for a long time and want to retool.  And 
so they see that as absolutely essential before they get back into college work to do math again or 
to redo their English skills.

	But we have done studies in Maryland to show that basically the investment made has made 
it possible for so many more people to move through the system more efficiently that actually when 
you look at it over time, the cost is not that great for the result that you get. 

Ms. Duncan.  If you were not to do that piece and just have students enter, obviously the success 
rates would be much lower.  So it is a way of ensuring that students are retained, and so I think it is 
a pretty efficient system.  And it is for the most part, for instance, in our college we use a great deal 
of technology to do that kind of instruction in both math and English.

	We can move a lot of people very quickly through the system, very efficiently.  And I think 
it is probably one of the most cost-effective things that we do in the community college in terms of 
ensuring success and retention.  That investment up front, I think, pays off in the long run.

Mr. Carter.  One of the things that we are concerned about, we all talked about dropout rates and 
we have, especially in the people, the people who are having to use the greatest amount of public 
resources, loans and so forth, and we have this high dropout rate in the first and second year which 
results in these people left with a debt that they have accomplished nothing for.  And that concerns 
us.

	We have; first off, it is a natural tendency to possibly default on it.  You did not get 
anything for your money.  But, in addition, it seems that we have loaded them with a burden and 
we have also possibly under financed the first two years of college, over financing the last two 
years of college; and they have had to go to work or something else to make it through school and, 
therefore, they did not make it through the first two years of college.

	A proposal has been suggested in subcommittee that we might look at more heavily funding 
the first two years and lightening up on the last two years, giving the incentive, as we had in law 
school, which is, you will not work your first years of law school.  If you do, you will be out of 
school because we have learned that you cannot work and go to this law school.

	A lot of the kids that are going to your schools have to work and take that student loan to 
get through school.  And some of them are doing a year of remedial before they get there. They 
might have three years of debt and expense to get there.  Would you like to comment on that?

Ms. Duncan.  I think you make some very good points.

Mr. McKeon.  [Presiding.] Can we get to the next one?  The time is up.  Then you can come back 
to that.

Ms. McCarthy.

Mrs. McCarthy.  Thank you.  I want to go back to keeping the kids in school, and probably follow 
up with a question that my colleague was asking.  The majority of kids that are going to college are 
working; whether it is part-time, full-time, they are working.

	Certainly, the workload and going to college is extremely heavy.  So, again, when we are 
talking about especially minorities on working and maybe their skills are not terrific so they have, 
in my opinion, two barriers because they are working, trying to do education, and there are only so 
many hours in the day.

	And obviously at the 6-month school, what are you going to do?  You are going to try to 
survive, so obviously you will go back to work full-time and maybe come back to college later.

	When I went to college I worked full-time, then had to drop out.  Went back a year later.  I 
just spoke at a high school graduation.  This woman took 28 years to graduate, God bless her, but 
she did it and that was her goal.

	But I think we should be look at the problem.  Half of these kids are not prepared, and that 
is our problem.  And hopefully, you kept saying that we have solutions for this.  Could you give us 
some idea what those solutions are?

Mr. Newman.  Yes.  Let me just say I think a very important thing is that when one looks at 
research on students working, and you are right, the majority of students are working at this point, 
if they work under 20 hours a week, it seems to be manageable for most; the lowest-income 
students, it is more of a problem.  But still, there is a big difference between working, say, 10, 15 
hours and working 40 hours.

	Secondly, I think something, and I will give in response to the chairman's request, I will 
send a list of the kinds of programs that we have been researching that work and make the attrition 
rates drop way off.

	But it does seem to me you have to recognize another thing.  Even more important than the 
question of work is the support structure that is there for the student.  Students that feel that this is 
important, that somebody cares, that somebody understands what they are doing, that somebody 
asks them how it is going, someone helps coach them through the progress do enormously better.

	So it is partly getting the financing under control, partly getting the work under control, but 
most important of all it is providing a support structure for that student who is not particularly good 
at it.

You do not need a support structure for students that are going to Harvard, Princeton and 
Yale.  They already know how to run the system.  They are chosen because they are really good at 
that one thing at Harvard, Princeton and Yale.  At Brown, they are better rounded.

Mrs. McCarthy.  Where did you graduate?

Mr. Newman.  Well, Brown, it turns out.

	Incidentally, I would also add something.  We, of course, would like to see high schools and 
elementary schools improve so much that students come much better prepared; and there has been 
an enormous amount of work done by the States on trying to do this, and it has had positive, steady 
improvement over long period of 20 years now.

	But the fact is, for certainly the next decade and probably the next two decades, we are still 
going to be struggling with that.  So to solve this problem we have to do effective, efficient, 
remedial education.  We cannot ignore that.

Mrs. McCarthy.  That goes back to teaching our teachers how to teach and also working from 
kindergarten or Head Start to high school.

	We are losing half of our students, not half of our students, but a large portion by junior 
high.  Junior high, we start losing our students.  High school dropout rate is higher than ever.  Some 
of them do go back to work.  And you can go into high school and see young people trying to get 
their education at high school at night.  They want an education.

	Go into any jail.  What do you guards say?  Give us education for these kids.

	So somehow we have dropped the bucket on that one.  Hopefully, with Leave No Child 
Behind, if we get the financing that we are supposed to, that would help us a great deal.

	Thank you.

Chairman Boehner. [Presiding.]  The chair recognizes the gentleman from Delaware, Mr. Castle.

Mr. Castle.  Thank you, Mr. Chairman.

	Not to beat a dead horse, I want to move along the same line of questioning and talk 
directly about cost control at the college level.  And all of you are exemplary leaders in the 
college/university communities, and probably a lot of what I have to say does not apply to you.

	There was a letter to the editor of Business Week concerning a gentleman who has kids at a 
couple of highly regarded liberal arts colleges, like Brown.  "I was appalled to see the 
incompetence and complete lack of accountability or regard for the customer, the students and 
those paying the bills, at these institutions.  There is absolutely no interest in controlling costs or 
other operational issues.  Most people running these institutions wouldn't last five minutes in any 
kind of competitive business." 

	Present company the exception, of course, but that is what one individual said.

	According to the Advisory Committee on Student Financial Assistance, financial barriers 
prevent 48 percent of college-qualified low-income high school grads from attending a 4-year 
college and 22 percent from attending any college at all.  And community colleges obviously do 
better, and we know that.

	The cost of college has dramatically outpaced the rate of increase in family incomes.  I 
think it has outpaced the rate of increase of anything else in the country, including medical care, as 
I recall, in the last 10-year period.  Over the last two years, tuition rose by more than 10 percent in 
16 States.  In 1999 and 2000, 64 percent of students graduated with student loan debt and the 
average student loan debt has doubled to $16,928, probably the debt of a lot of the people sitting in 
the audience today.

	Thirty-nine percent of student borrowers now graduate with unmanageable levels of debt.  
Fifty-five percent of American student borrowers and 58 percent of Hispanic student borrowers 
graduated with unmanageable debt burden.  That is assuming that they graduate, and we know that 
a lot of them do not even get there.

	I just think that we have a tremendous problem.  And I know there are a lot of moving parts, 
and we at the federal government level with our loan programs and our Pell grants and the various 
thing that we do, and the tax credit structures that we set up, have a part in this.

	I know that the States have a part in this for the publicly funded institutions.  And obviously 
the States are struggling right now.  So we are aware of all of that.

	I am not one who believes that regulations are going to work.  But I am not sure the will is 
there.  I am not.  I have been working on this problem for a number of years now, and I am very 
concerned.  Some of you have expressed it, and if we put the three of you in charge, my sense is 
that maybe the will would be there.

	But I am talking about the broader will of everybody running colleges and universities, 
including 2-year schools, across the United States of America.  I frankly am very, very concerned 
about those costs.

	I think we have a tremendous problem in this country and I think we need to address it 
sooner rather than later.  I have said that for a long time, and it simply is not happening and the cost 
of living keeps going up tremendously.  And we are not educating the way we should in terms of 
lower-income and particularly our minority populations.

	I realize there are a lot of offsets.  Many of the better schools, the better-endowed schools, 
the Williams Colleges and those places can offset some of this.  But for the most part, young 
people are rolling up tremendous debt.  If they go to graduate school, it is even worse.  Most of 
them can't afford to go to graduate school.  That is a problem for America.

	We really do need to address it.  And we need to address it at the institutions that you 
belong to and all of our colleges and universities in the country.  I would be interested in your 
comments on that direct part of it.  You do not need to bring in the Federal Government and the 
States.  I know all about that.  But what can we be doing to motivate the colleges to do better?

	And I have looked at college after college.  I have concluded it is a tremendous problem out 
there.

	You can go in any order that you want, but if someone is willing to take that, I would 
appreciate it.

Mr. Charles Miller.  Public education had some of the same problems.  The institution couldn't 
affect itself.  Central bureaucracies regulated it, and it is highly subsidized or free; it is an 
entitlement.  The people who pay for it are not necessarily the ones who use it.  The taxpayers who 
pay for it are not necessarily the ones who have the children in school, although there is some of 
that.

	Medicine is the same way.  The people who use the system haven't been the ones who 
necessarily paid for it because we had third-party payers and there wasn't any accountability 
between the people who used it and the people who supplied it.  And there were, in areas where 
you could build costs into it, an infinite amount with technology or safer ways to do things, or 
presumably, better ways to teach.

	One of the ways we put a brake on that in public education was to turn loose the regulation, 
at the State level particularly, and begin to ask those who were delivering the system to be held 
accountable.  Not the children but the people who delivered it:  the schools and the system.  That 
began to create a force that made the system begin to correct itself.  I think something like that is 
going to have to be done in higher education probably in medicine, because you have some of the 
same factors.

	I will beat a dead horse.  It is a highly subsidized area.  So if the State is paying only 20 or 
30 percent and the federal government a certain amount, the people using it.

Mr. Castle.  But what about what the colleges are doing?  What are you paying the football coach 
at Texas?  What are you paying the president at Texas?	I don't know.  These are the things that 
concern me.  What are we doing about those overall costs?  I just do not hear anyone speaking to 
that out there.

	We have those problems in government.  We have to control our costs.  Manufacturing has 
those problems.  But colleges do not seem to recognize that as much.

Mr. Charles Miller.  We had that, probably in both of those areas, in higher education.

Mr. Castle.  Not to pick on Texas football.

Mr. Charles Miller.  Actually we break even on that.  And even in Texas it might be harder to 
defend continuing what we do there.

	At UT Austin they have a great program.  They pay the coach large amount money, and it 
supports itself.  The chancellor of the University of Texas system gets paid a lot, but we get that 
with private funds.  The State only puts in 10 percent.

	I am not defending that.  I am not sure what accountability there is.  I think there are 
problems with that, because we can keep bidding each other up with that.

Mr. Castle.  I would like to pursue that.  Could I ask the other two to answer the question?  I know 
my time is up, but if Dr. Duncan and Dr. Newman could answer that question, I would appreciate 
it.

Ms. Duncan.  I have worked in three States, South Carolina, New York and Maryland, and I have 
never done anything but worried about controlling costs, because there has never been any revenue.

Mr. Castle.  I came very close to excluding you from this because the community colleges have 
done better.

Ms. Duncan.  It is difficult to relate to this discussion.  Most our faculty are adjuncts who are paid 
on hourly rates, basically.  They have no benefits.  We have a lot of issues in terms of how we treat 
our workforce even.

	And I have 1,500 people who work at Howard Community College.  Three hundred fifty 
are the core workforce; all the rest are adjunct, are hourly people, and that is how we keep our costs 
down.  We control costs; we are experts at controlling costs.

Mr. Castle.  I like that.  I wish you could teach some of the others who are not controlling their 
costs.

Ms. Duncan.  And we do not have football.

Mr. Newman.  I think the odds are very good that when you want to get organizations to examine 
costs and to really get efficient about costs, which, is what you are talking about; you are not 
talking about simply controlling costs, you are talking about doing things effectively and 
efficiently.  You want more learning but on an efficient basis.

	There has to be a strong incentive within the organization to succeed at that, and regulation 
does not get you a strong incentive to succeed.  So it seems to me essential that we find ways to 
force the institutions to be competitive in terms of cost.

	We are now moving into a system where that is very much the case.  We are seeing more 
and more institutions competing.  Sort of the quasi-monopolies that institutions used to have are 
breaking down as the competition heats up.  That is a good thing.

	But there is a role for government, a very powerful role.  Unless you structure the market 
properly, the competition will do the reverse.  For example, you mentioned athletics.  Athletics are 
the poster child of what goes wrong in the competitive world when there are not restrictions and 
structures in the market.

	What we have is a market that is out of control.  We are paying college coaches a million 
dollars, sometimes $2 million.

	I was at a major university, and I wouldn't mention it by name because I don't think it is 
appropriate, but it was the University of Nebraska.  The man who picked me up at the airport was 
talking about the economy had no construction under way in Nebraska.  And I said wait a minute, I 
just saw a whole bunch of construction cranes and he said, yeah, we are adding more luxury boxes 
to the stadium, but we always do that.

	We are out of control in athletics.

Mr. Castle.  Have you met Coach Osborne on this committee?

	Go ahead.

Mr. Newman.  We are going to have to have some controlled form of competitive effort to get 
costs down.  It will not, and by regulation, it has not worked in any other field and will not work in 
this.

Mr. Castle.  I agree with that, and I will yield back my time.

Chairman Boehner.  The gentleman's time expired a long time ago.

	The chair recognizes the gentleman from New York who knows a little bit about this 
subject, former president of a college out on Long Island, Mr. Bishop.

Mr. Bishop.  Thank you, Mr. chairman.  This is a subject I won't say is dear to my heart, but it is a 
subject that I know a fair amount about.

	But I want to change the topic a little bit.

Mr. Miller, at the end of your written testimony, you talked about developing a national 
accountability model for higher education and you outlined a set of measures that could be 
included in this accountability model.  My question to you is, how do you see that model 
interacting with the existing models that are imposed by a great many State Departments of 
education on higher education, including private education and with the regional accrediting 
bodies?

	Do you see the model as complementing those efforts or do you see the model as 
supplanting the efforts of those groups?

Mr. Charles Miller.  There are two accountability systems I was talking about, maybe three 
counting accreditation.  One is to measure student learning.  I think that is something that 
individual institutions or sets can adopt; and that, over time, would, because of competitive or 
comparative reasons Americans like to do better and better than people they are compared to over 
time that would be adopted, I think, wide consensus about what should be taught and what should 
be learned in the first two years especially.

	And I would like to see some encouragement of that from the federal government in some 
form.

	The other set of data is institutional performance data, and that gets into how we operate, 
how productively, what we turn out, what we do, what time, how we use our money.  There are a 
whole set of data points I could give you.

	I think we need to encourage the academy to come up with a really strong offering of what 
that is, because I think said, perhaps, earlier we have so much data we are getting inundated with it.  
	It is not effective and nobody can use it.  It needs to be policy driven.

	So whatever the data is needs to turn to the State leaders and the local leaders and you all 
and say, this will help you make your decisions and help the institutions manage theirs.  If it is not 
connected to policymakers and has some feedback mechanism, it will get lost with all the data we 
collect today, which is enormous.  We have too much.  It is not policy driven, and it does not go to 
the people who make the decisions outside of the academy.  Even inside the academy it is really 
hard for people to know what it is they are making decisions on. .

	I could tell you truthfully, as a board member of four years, and I have a substantial amount 
financial background, it is hard to interpret the financial data or get meaning from it the way most 
us would, say, that run organizations or manage organizations.  It is very difficult.  It is tradition or 
accepted.

	I am not sure that people in the institution, I don't think, are intending that to happen, but it 
has happened all the time.  Unless there is some outside encouragement or imperative to change, I 
don't think it will change itself.  I also know it is a crisis time to do that.

Mr. Bishop.  But my question is, do you see the type of encouragement that you are suggesting the 
federal government impose on higher education, do you see it being directed specifically to the 
colleges or throughout regional accrediting bodies?

	Speaking from having been on the receiving end of the accrediting bodies for the last 29 
years, it seems that there are already a great many standards that colleges are struggling to comply 
with.  And to add another set of standards, unless those standards were integrated with the existing 
standards, I think would be perhaps counterproductive for colleges.

Mr. Charles Miller.  I think the answer on accreditation would be that you focus on the 
performance data.  I think today it is primarily input driven, just like it was in public education.  It 
is how much per square foot in the seedy archaeology department.  It is very detailed and focused 
on inputs.

	And I think we need to not totally eliminate that, but I think it would be healthy to put 
performance data into the mix, the kind of performance data that we are talking about here today, 
and not to force institutions, but to find a way to get a common reporting process so that 
policymakers can use that.

	And that includes the accreditation people.  They are policymakers, directly or indirectly.  
They are stamping their approval on the quality of what is being produced.

	The only way to measure quality is to measure output.  It used to be inputs.  We accepted 
that.  That was a good way to do it in the earlier years when that was first tried, to measure quality; 
that is why we had accreditation.  But today we need to measure outputs more critically.

Mr. Bishop.  But at least the regional accrediting body, with which I am most familiar with, the 
Middle States Association, is putting enormous emphasis on measuring outcomes, much to the 
benefit of colleges and their students.

Mr. Charles Miller.  I commend them on that.  Thank you.

Mr. Bishop.  I have a question for Dr. Duncan.

	You make reference in your testimony to the burden associated with working, for students, 
and the impediments that that kind of work obligation puts in the path of students who are hoping 
to graduate.

	Have you had any experience measuring the difference between students who work on 
campus or off?  And the reason I ask the question is, my experience with dealing with student 
retention issues is that students who are able to connect themselves to a part of the college tend to 
graduate in higher numbers than those who remain unconnected; and work on campus is a way for 
students to be connected.

	So the thrust of my question is, wouldn't we all benefit from increased college work/study 
support so that students could work on campus, have a better chance of graduating, and also reduce 
their loan obligation?

Ms. Duncan.  I think that is an excellent suggestion, because also the work then is limited; it is not 
40 hours.  You do not have any of your work/study students working 40 hours.  And you do build a 
relationship with them and there is a support a natural support group that develops around students 
to make sure that they are doing well.  So I think that is an excellent idea.

	But certainly working in the freshman year, and a number of you has mentioned the 
importance of putting resources in the freshman year.  I think those are critical areas to be sure that 
freshmen have all the support they need to develop the discipline and the skills they need to 
succeed in the years that follow.  And if they can do less hours working and if the work is 
manageable, like it typically is with work/study, 15 to 20 hours, then I think it is much more likely 
that students will be successful.

	Last night, I met with nursing students just coming into the nursing program.  And that is a 
major critical workforce need in Maryland.  And most those people, men and women, already are 
working full time and wanted to be in the evening nursing program full time.  The success rates are 
going to be problematic with that kind of a situation, but they have children, families, they have 
homes that they have to manage.  And so it is definitely a crisis for people who are in that situation 
to try to do both.

Mr. Bishop.  Mr. Chairman, do I have time for one more question?

Chairman Boehner.  Sure.

Mr. Bishop.  Dr. Newman, in your testimony you reference a study conducted by the Pew 
Charitable Trust, an effort that was supported by the Pew Trust that put emphasis on the freshman 
year and talked about large introductory courses as a way of saving money.

	Have the students who were enrolled in those courses been tracked with respect to their 
retention?

Mr. Newman.  Yes.  The study is a very interesting case.  Pew funded the study, and it involves 10 
institutions the first year, 10 the second, 10 the third.  Each is a multiyear program.

	What they did was not simply apply technology to large introductory courses, but what they 
did was completely redesigned the courses and asked the fundamental question, what costs so 
much about it?  How do we use resources?

Mr. Castle made the point that industry would examine it quite differently and look at costs, and 
that is what they have done.

	They have had excellent results.  The savings have been between 7 and 70-something 
percent, averaging 30 percent in costs.  But the student satisfaction and the independent assessment 
have shown that the learning has gone up.  They have tracked the students to see not just, have they 
stayed involved, but do they take more courses in that field.

	One of the things that is really a problem is that many students, for example in math, will 
take a course in math, or whatever is required, and say, I will never take another math course again 
as long as I live.  

Mr. Bishop.  Not a bad idea.

Mr. Newman.  That is true for statistics, not math generally.  Incidentally, just a point on what you 
mentioned earlier about students working on campus.  There is some interesting evidence.

	There are a dozen or so really interesting colleges that only admit very poor students, but 
the students, in turn, as part of their costs, like Berea and Warren Wilson and so forth, have to 
work.  Those students have very high retention rates and very high loyalty to the institution.

Mr. Bishop.  Thank you, Mr. Chairman.

Chairman Boehner.  The chair recognizes the gentleman from Florida, Mr. Keller.

Mr. Keller.  Thank you, Mr. Chairman.  I have questions on two areas, one, the accountability area 
and the other one the affordability.  On the accountability area, I am all for accountability, and I 
kind of direct this to all three of the witnesses.

	For example, when we talk about measuring the performance of a third grader, to make sure 
he can read, it is about literacy, and I support it.  But if we are implying that the federal government 
should start requiring college seniors to take some sort of test to see if they are smart enough to 
graduate, it seems to me that would be a case of Big Brother just being a pain in the ass.

	That is not in the talking points, but that is my sense of it.

	When you talk about accountability, Mr. Miller, is that what you are suggesting, some sort 
of test for these kids before they graduate?

Mr. Charles Miller.  No, I think the federal government has implied that with the No Child Left 
Behind.

Mr. Keller.  No, they have not implied that for college?

Mr. Charles Miller.  Well, they apply an accountability system, and the States are able to devise 
whatever they think.  And over time they are going to be expected to do that all through the system 
to the 12th grade.  It is going to take that number of years to do it.

	They are not asking the States; they are telling the States essentially to do this.

Mr. Keller.  But let me say this:  It is 3rd through 8th grade for No Child Left Behind Act.  Are 
you implying that colleges should be required to give students some sort of tests before these kids 
graduate, required by us?

Mr. Charles Miller.  I don't think colleges should be required to test high school or not.  Almost 
all colleges have some entrance requirements if they are four-year colleges.  Community colleges 
and some others are open enrollment.

	So I don't think there should be any requirement for some colleges.

Mr. Keller.  Let me move on.  I am not talking about high school testing here.  I am talking about 
college.

Dr. Newman, let me go to you and then Dr. Duncan.

Mr. Newman.  May I add?  I think, in general, whenever the federal government can encourage, 
force, provide the incentive, whatever way to get the institutions to do themselves what you want 
them to do, it is better than you doing it to them.

	So the question then comes, is there a way to create an incentive that forces institutions to 
begin to actually measure learning without the federal government saying, we are going to give 
everybody a test?  And I think there are some ways of doing that, and the federal government has 
been pretty good at it.

	One way is to think about how to use the accrediting associations and get them to demand 
it.  The other way is what the State of Illinois has done.  The State Board of Higher Education in 
Illinois just came to an agreement with all the institutions that report to it saying, we are going to 
measure the outcomes, but we want you to develop the mechanisms by which we are going to do it, 
and we want it to be reported.  We will negotiate with you.

Mr. Keller.  Dr. Duncan, do you have a thought on a requirement that we make college graduates 
be tested before they graduate?

Ms. Duncan.  That would be difficult because of the complexity of the programs that students are 
in.  But there are tests now, and I agree that the incentives coming through the accrediting agencies 
are a way great way to go.  Many of the accrediting agencies are looking at the Baldrige model as a 
way of identifying quality measures.  And that, I think, is a very interesting application of getting to 
this issue of outcomes.

	So I think there are mechanisms that can be strengthened and that can be effective, but 
already there are measures, for instance the education core, the academic profile is used by many 
colleges to test how students are doing, but mostly in freshman and sophomore years to make sure 
they are on the right track.

Mr. Keller.  Since I am getting low on time, let we switch to another topic.

	You were asked earlier about work/study programs.  I recently had all the leaders in my 
State of Florida together, the Secretary of Education and all the financial aid counselors from the 
colleges, and there is a big concern with work/study programs; and I will tell you why.  It causes 
you to lose your Pell grant.  And I will give you an example, because we have to reform this.

	Imagine a student pre-med kid, family of four with an income of $38,000.  He gets his Pell 
grant, $4,000.  The average tuition and everything else is about $12,000.  If he decides to go out 
and work his tail off and make $9- or $10,000, he loses his Pell grant if he hits the $47,000 mark.  
So there is actually a financial disincentive for part-time work.

	Are you aware of this problem and do you have any suggestions about how to fix it?

Ms. Duncan.  Well, since or tuition does not get to that level, it does not occur in our institutions to 
the same degree. If you really are dealing with real students who want financial aid and work, 
whose parents are supposed to pay in many cases and who do not, it is much more complex than 
just knowing those numbers.

	When you are faced with real students every day and there have to be a lot of systems 
beyond even the federal support to fill in the gaps, because there are always gaps.  You will never 
figure out every single situation that will support students who have needs.  And it is something 
that we have to continually work out because there are people who are always falling through the 
cracks, because what it says on paper may not be their real situation.

	So it is indeed a problem.

Mr. Charles Miller.  Can I add one answer, because it is a good example for me to express what I 
have been talking about?

	I believe in work/study programs properly applied.  I do not have an answer about the 
connection with the Pell grant, but the part of that equation that worries me, even if you allow that, 
to not have one refute the other or allow that student to get both of those financial aids, the price 
that that institution is going to charge is unregulated or unlimited and will go up to match it.

	We do not have any governor on the system to stop it from going up regardless of what we 
do.  The more we give to that student without any system to contain the price, not the costs, the 
more we are pressing prices up.  We need something to keep that price from going up.

Mr. Keller.  I thank all the witnesses.  Thank you, Mr. Chairman.  My time has expired.

Mr. McKeon.  [Presiding.]  Mr. Hinojosa.

Mr. Hinojosa.  Thank you, Mr. Chairman.  I want to thank all the members of the panel who have 
come to testify.  I found them very, very informative, and I appreciate the opportunity to ask a 
question or two.  But I would respectfully request that I get one or two minute answers so I could 
ask more questions.

	My first one is directed to Dr. Mary Ellen Duncan.  Community colleges like yours are 
certainly the gateway to postsecondary education for most minority students.  Unfortunately, many 
in our Latino community who start at a community college with the hope of completing a 4-year 
degree never reach their goal.  They do not make the transfer.

	So what can be done to improve the transfer rates from community colleges to 
baccalaureate degree programs?

Ms. Duncan.  I think this is certainly a challenge that community colleges have to address with all 
minority students.  It can't just be a way in and not a way out.  And a great deal more of our 
resource needs to be put in the freshman year to be sure that students are prepared for that transfer.

	There are other problems coming along in terms of access to four-year institutions.  
Because of the tremendous growth in community colleges, there are many more students ready to 
transfer than there are seats in four-year institutions, so this is going to be two problems, one, that 
the community colleges have to work on in terms of providing better support for students as they 
come in the freshman year, the freshman year is a critical year; and also fighting the battle to be 
sure that seats are reserved for students in the transfer process and that they actually do have a 
place to go when they complete their two-year programs.

Mr. Hinojosa.  We can get some additional information in writing to this question, because it is 
very important to areas like I represent.

	The second question is also to you, Dr. Duncan.  You are absolutely on the mark when you 
describe community college as the Ellis Island of higher education.  However, for one group of 
students, even this Ellis Island of education may be beyond their reach.  I am talking about young 
people with immigrant parents without permanent resident status who are brought to this country as 
children and who have attended and graduated from American high schools, who are often at the 
top of their graduation class and yet cannot go to college because they do not have that permanent 
resident documentation.

	I have students in my congressional district who have graduated valedictorian and some 
salutatorian, but they can't accept the scholarships.  They are even asked to pay out-of-State tuition 
fees.

	How does your community college association recommend that the federal government 
address this issue?

Ms. Duncan.  Well, I certainly can speak for something very imminent in Maryland.  We have a 
bill waiting to be signed to make that possible, that the State legislature has passed.  So we 
certainly in Maryland have worked hard in the community colleges to make this possible.

	I don't know if the association has a position.

Mr. Hinojosa.  It does support it?

Ms. Duncan.  Yes.

Mr. Hinojosa.  We would like to talk to you more about that.

Mr. Miller, I enjoyed meeting you this afternoon, and it is refreshing to me to see 
businessmen with your capacity to be serving in the position that you have.

	The Texas Higher Education Coordinating Board has developed a plan called Closing the 
Gaps.  What is the State of Texas doing to make some progress in closing the gaps in that 
initiative?

Mr. Charles Miller.  Thank you, and thanks for encouraging a Texan to talk for just a minute, 
Congressman.

	We are doing a lot of things.  Actually, we have now required that students in Texas take 
the college preparation curriculum or opt out.  In other words, it is a default curriculum.  It is 
required instead of optional.  That is a big step.

	We are raising the bar for graduation from high school.  The first test this year will be a 
much higher standard required for that.  We are proud of that.

	The business community has been very active reaching down, as far down in the 
community, even to the 5th or 6th grade, to let families and students know what is available in 
higher education, particularly first generation families.  We are making an effort to do that.  We 
think that is a very high priority.

Mr. McKeon.  The gentleman's time has expired.  Maybe you could give those additional 
questions in writing and they could answer them.

Mr. Hinojosa.  I do have them in writing, and I would like to submit them and ask, if possible, if 
you all could give us some written responses, because they are very important to my area.

RESPONSES FROM CHARLES MILLER AND DR. MARY ELLEN DUNCAN TO 
REPRESENTATIVE RUBEN HINOJOSA'S SUBMITTED WRITTEN QUESTIONS - SEE 
APPENDIX F

Mr. McKeon.  They are.  Thank you.

	Mr. Burns.

Mr. Burns.  Thank you, Mr. Chairman.  And I thank the panel for being here.

	I spent 20 years of my life in the university system of Georgia, so I share a good bit of the 
experiences that you are sharing with us today.  I want to talk about two things; one is 
accountability and the other is quality.

	I am interested in your input on policy, university policy changes that might assist us in 
controlling costs and being more accountable for those things.  We seem to focus on things like 
student cost per credit hour and measures, as Mr. Miller suggested, of input and not output.  We 
have got to go over to the output side.

	I recall advising a young man one time who attempted Accounting II five times, and his 
marks were F, F, F, F, and B.  I asked him, what happened to D and what happened to C?  And I 
think my challenge there is, how did this person have the opportunity to sit through the same course 
so many times at, essentially, taxpayer expense?  What policies can the universities provide to keep 
those kinds of patterns from recurring?

Mr. Miller?

Mr. Charles Miller.  Thank you.  I think those are very valuable kinds of questions because that 
gets down to policy decisions, that we can make those.

	We are trying to get more flexibility in Texas to actually price those kinds of things, to 
encourage people to get out faster, take afternoon classes, Saturday evening, things that would 
lower the cost or accelerate the graduation.

	But I think reporting on retention and those things we were saying a minute ago, the 
graduation rates and comparing institutions, would encourage that kind of management.  So the 
policies that would be followed would be those that would help reduce the costs.

	And that student might even be limited in being able to enroll a certain number of times or 
the price may go up or they may not be able to come back for a number of years.

	Unless you are reporting those, you would have a hard time implementing the policy.

Mr. Burns.  I am not suggesting that the class should not be available.  I think, in this case, the 
student was not taking the course seriously the first few times he took it.

	Our system is quite unique in the United States in allowing access.  We have a very open 
access system.  If you look at the Swedish system that I worked in, or the British system in 
Australia or New Zealand I was in, their demands and expectations are higher than ours and they 
hold them to a higher standard.

	Are we seeing a different thing in community colleges, Dr. Duncan?

Ms. Duncan.  I think occasionally what you say probably occurs.  It certainly occurs sometimes in 
remedial courses; and our board of trustees has asked us to look at how many times students repeat 
classes and asked us to provide various kinds of intervention earlier so that students who are not 
performing well can get extra support, so that they are not in that situation and they are basically 
forced to make decisions about whether they are going to stay or leave.

	But we certainly have out there as a possibility that, if students do not succeed after a 
certain number of times, they may have to pay the full price.  So we have certainly addressed that.

	But I think as to your point about access, the community college can't be described in one 
simple way.  Since people are coming from so many different walks of life into the college, it is 
rather chaotic.

	But by and large, it is remarkable how many people do get to achieve, given the right 
support.

Mr. Burns.  The best students, I always found were those nontraditional students who were 
coming back into the educational environment after having some life experience.  If you look at the 
triangle of the university, the student, and whoever the payee might be, it always works best when 
the student is financing their own education because they have a vested interest in that.

	Let's look at quality issues.  I concur with some of the inputs I have heard this afternoon 
about performance and quality measures.  How do you define success?  How do you measure 
outputs?  What would be the two or three key variables or key indicators of a successful education?

Ms. Duncan.  For the community college student, whether or not they get the jobs they are 
preparing for and the employers are satisfied; whether or not they transfer if that is their goal.  Or if 
they have another goal, which is very possible, I can give one very poignant example.

	We have a student who is going to be singing at the Kennedy Center next week.  The only 
thing she was interested in studying was music.  And she is going to be performing.  She won the 
Young Artist Competition for the National Orchestra.  She only wanted to study music and foreign 
languages so that she could study opera.  She is a success story.

Mr. Newman.  I think there are a small number of intellectual skills that are critical for the student.  
We have plenty of institutions that are beginning to measure these.  For instance, students ought to 
be able to write clearly, communicate orally clearly.  They ought to be able to solve problems so 
they could take information, for example, if they know enough math that is one thing, but if they 
know enough math and they can apply it to a problem that is another thing.

	These are things that we can measure.  Admittedly, we will measure them at differing levels 
depending on the institution where we measure them.

	So I think we ought to be doing that, and I think we ought to work on getting every 
institution to figure out how to ask those questions of its students.  I think it is perfectly doable.  
People are doing it.

	But you asked a second question.  What is success?  I think it is not only gaining those 
skills and that level of knowledge, it is something else.  It is gaining the self-assurance and the 
confidence to go out and do something in the world.

	And somebody mentioned before, maybe it was you, expectations.  We need to raise the 
expectations students have of themselves.  And you do that not by telling them, if you do not do 
this, we are going to flunk you out.  You do it by saying, you can do this; we are here to help, but 
you have to get going here.

Mr. Burns.  Virtually all the students I had had the capability.  They had the ability, and they were 
waiting for the right time.

	My friend and colleague from Florida was pointing out or was asking about the issue of 
testing.  We already have testing at the graduation level; it is called the CPA or professional 
engineer or some licensing whether you talking medicine or pharmacy or nursing, what have you.  
There are already ways to evaluate professional competency.  We may need to develop other types 
of measures in other types of fields.

	Thank you, Mr. Chairman.

Mr. McKeon.  Thank you.

Ms. Majette.

Ms. Majette.  Thank you, Mr. Chairman.  And thank you to the panelists not only for being here 
today, but also for all that you do to help to educate our nation.  I really do appreciate your efforts 
and your work.

	I have a couple of questions.  First, I would like to say that, Mr. Miller, I certainly agreed 
with you when you made the statements earlier that we need to do a better job at K through 12 in 
order to educate our children and prepare them for college.

	I agree with you, coming from the experience of having attended an intercity public school 
back in the 1960s and early 1970s, and then graduating and going on to Yale.  And having been in 
the top 10 percent of my class and doing very well, but then meeting the challenge of that 
university and finding out that I was not as well prepared as I could have been or should have been 
at that public school level.

	I was able to, with the assistance of the university; with tutors and study groups and other 
kinds of things, I was able to get up to speed fairly quickly and go on to attend law school and 
graduate, become a judge, and now I am here.

	But having said all of that, I agree with you that the foundation of success at the college 
level, that foundation is built in K through 12.  And so I guess my question to you regarding that 
you said you think the quality is down at the higher institutional levels, and do you see that as being 
a function as a result of our failure to do what we need to do in K through 12?

	And how do you see that Leave No Child Behind and the other programs that currently 
exist will help alleviate the problems that we are dealing with now?

Mr. Charles Miller.  Thank you.  I think the answer is, I personally believe, for retention and 
graduation, there is nothing more important than the fundamental parts that we get from K through 
12.

	We are trying to measure the high school results all the way back into earlier grade school, 
and high school all the way through college, to align the system so we can follow or monitor 
performance.  So we could actually go back to look at a Texas high school to see if they prepared a 
student for college.  We are doing that with some of the testing requirements and the like.

	I think we have actually, to some extent, lowered standards, because we do not have any 
measure of standards, particularly in the freshman and sophomore years.  We have tended to take 
that for granted.  As we get more cost pressures and enrollment pressures, because many more 
people want to do that and the value of a degree is going up a lot financially, the more we get that 
pressure without some encouragement for quality, some productivity improvement, the more 
quality goes down.  It is just like an inevitable force.  It is not easy to measure it, because we do not 
have any measures of quality that most people widely accept.

	But I think the public, at large, feels that, and I think it is probably accurate.

Ms. Majette.  Doesn't that assume that people won't vote with their feet?  It sounds as though you 
are assuming, no matter what the cost, people are going to continue to pay that cost.  And I don't 
know that that is really how it would work in the real world.

	And certainly Dr. Duncan has the example in her written testimony of the young man who 
made the decision that he did not want to incur that kind of cost, and so he made a different choice.

	I don't know if that is the norm, but I do think that people make decisions based on their 
finances to a large extent on whether they would go to a particular place or not.

Mr. Charles Miller.  Yes, they do vote with their feet.  One of the ways they vote is to leave 
college.  They drop out.  They are not retained.  They do not graduate.  They feel like they can get 
something better some other place.  They go to other colleges.  There are sets of people who do not 
have an option, and they are put in categories that they either can't do it or won't do it.  There are 
people who can afford anything.

	So what we are trying to say is, we want to broaden that access for as many people as we 
can and make the ability for people to move with their feet wide-ranging.  We don't necessarily 
have that.  We have limitations on people's ability to move with their feet.  We want more of that.  
So it is a very good goal.

Ms. Majette.  Thank you.

	And Dr. Duncan in your testimony, you talked about Marcus Bryant, who made the 
decision to turn down the offer of a four-year college because of the debt load that he would 
accumulate.  That is a real problem, and I have seen it time and time again.

	The students are writing checks they cannot cash and are graduating from college and 
professional schools with sometimes debt in the six figures before they start to work. As a result of 
that, we see that personal bankruptcies are on the rise and other related issues.  What do you think 
we can do?

	Or do you think we are making it too easy for young people to begin their careers going too 
deeply into debt and how do you see us resolving that issue?

Ms. Duncan.  Frankly, I am not sure that I see a solution to resolving that issue, except that people 
do have choice.  And I think we do have responsibility to make people aware of what their choices 
are.

	And I think students do have to understand what the cost is, and certainly we advise 
students very carefully who want to take loans, and we do not encourage loan taking for the very 
reason that you mentioned.  Because students are going to transfer, they certainly are going to have 
other debts that they are going to incur later.

	So we do try to be sure that students understand when they make decisions about taking 
financial aid and loans that they know what that means in the long term.  And I think it is part of 
our responsibility to advise students in the process.

	And we do a lot of work in high schools to advise them.  We do not wait until they get to 
Howard Community College.  So we spend a great deal of time with juniors and seniors and their 
parents talking about the cost of going to college and planning for it and realizing what their 
choices mean in terms of costs.

Ms. Majette.  Thank you.

Mr. McKeon.  I guess it is my turn now; and I might have to leave, because my other committee is 
in a markup on the Armed Services bill, and I will have to leave shortly for a vote.

	But I am glad that this hearing was held.  I think it is very important that we focus on 
affordability, accessibility, accountability, and quality.  These are issues that we will be focusing on 
as we go through the higher education reauthorization this year.

	And I am glad that my good friend, Mr. Kildee, brought up, that somebody thought about 
an idea that has kind of stirred a little controversy.  But the focus on that idea, which is not yet 
written into a bill, but we are in the process, everybody's focused on one thing, and that is, if the 
tuition goes up at twice the rate of inflation for two years and then you report to the Department of 
Education, and do you it again a third year, there may be some sanctions imposed.  Nobody has 
talked about the transferability or the creativity or other things that we have talked about in that 
bill.

	The purpose and the concern that I have is, Mr. Castle read some important statistics, 48 
percent of our qualified high school graduates are not able to go to a university now because of 
costs; 22 percent cannot go to a community college because of costs.

	And when I talk about this bill and doing something about it, the whole brouhaha is, you 
can't do that, we can't have federal controls, the federal government can't be involved in that kind of 
thing.  The federal government accounts for 38 percent of the cost of higher education.  We provide 
6 to 7 percent of the cost of K-12 education and we are quite involved there.  I think if we are 
providing about 38 percent, we ought to get somewhat involved.

Federal controls is anathema to me, but letting this problem go on is greater because we are 
creating a mixed society if we say, you can go because you have the money, you can't go because 
you do not have money.

	I think we need to address it.  And what I am saying is, the students, the parents, the States, 
the schools, the financial institutions that are providing loans, the guarantee agencies, everybody, 
including the federal government, needs to become involved in this process.

	The federal government has increased their share of higher education, $23 billion in the last 
four years.  That is a lot of money.  At the same time, the States are cutting their money.  They 
should be involved.

	We have had some good points today about how the parents and students could be 
discriminating buyers.  We need to have a forum where people say; will I get a good education at 
this school?

	Sometimes in the past there has been a tainting of community colleges and that, I think, is 
very misplaced.  I think they do a fantastic job to help get people started.  And in some cases, that 
is all the education they have, but that really helps them as they go through life.

	And I just think that we need to really all come together.

	I do not dislike schools.  And I do not dislike administrators.  But the fact that the first thing 
that came out of their mouth is:  You can't do that.  Not the idea that, well, maybe we should look 
at our costs a little bit or maybe we should look at what we can do to be creative.

	In California, we have students that are going to one State university, take an education 
class or English class, and they cannot transfer those credits to another California State university.  
Same school, different campus.  Why can't they do that?

	On many of these things we need to come together and get involved and address this 
problem, because the problem is great and it is going to get greater if we do not come to the table 
and address it.

Dr. Newman?

Mr. Newman.  Mr. Chairman, I want to be sure I am clear about something.  I do not disagree; in 
fact, I strongly agree that the problem needs to be addressed.  I would argue that the universities 
and colleges of this world, up to now, have been irresponsible on this subject; and I do not mean 
that they are stealing.

Mr. McKeon.  Let me interrupt you.  You probably do not mean what you just said, when you say 
the colleges are irresponsible.  See, we tend to lump all the 6,000 schools into one thing when we 
say that.  And some are doing a very good job.  Some are not.  We need to all come together.

Mr. Newman.  What I mean by that, we have a responsibility to do more than control costs.  When 
I was a university president I went through a very tough budget cycle and had to cut out college 
and sports teams and other things like that, and that is painful stuff.  But we have to go beyond that.  
We have to be very good at analyzing our costs and exactly what you are talking about.  My 
question is not whether that is a responsibility that the institutions have or whether or not the 
federal government ought to be concerned and engaged in that.  It is, what is the mechanism that 
will get us there?

The reason I gave the answer that I did, we have been tracking over the last decade some 
very extensive efforts on the part of the States to try to regulate costs.  And it is like many of other 
things that they have tried to regulate the costs.  When they regulate, it does not do well.  What we 
need to create is a set of circumstances under which the institution feels compelled to get at this 
subject on their own, and we have, I think we are on the cusp of that.  And if we can find some 
ways to push us over so that the institutions begin to take that responsibility.

	There was a time maybe 10 or 15 years ago when you raised the question that, maybe of the 
better-known institutions, you said, we really need to think about costs, someone would be sure to 
say, if you are here talking about efficiency, then it is clear you do not understand higher education.  
And that is just a cop-out.  We have to address it, and I think the federal government has a stake.  I 
just I think we have to find workable ways that will force the institution to be creative and 
thoughtful about it, rather than regulate it.

Mr. McKeon.  Five years ago, we talked; and not a whole lot has happened.  We have to get 
serious about it now, and we can't let this go on.

	My time is up, and I do not disagree with you.  We need to come together and work on this 
issue.

	The chairman is back.  I am leaving.  I just finished.

Mr. Van Hollen.

Mr. Van Hollen.  Thank you, Mr. Chairman.

	I want to thank all of the witnesses who are here today, and a special thanks to Dr. Duncan, 
a fellow Marylander.  I appreciate all the work that you do at Howard County Community College; 
and I hope the governor will sign that piece of legislation, which will open the doors of higher 
education to others who, as Congressman Hinojosa said, some of them are valedictorians in their 
class.  They graduated side by side with others, and just because they lack a permanent resident 
status because of a decision their parents made, they might not have the opportunity that others 
would have.  So I hope the governor signs that bill.

	I am trying to sort out the difference between the costs of providing that education versus 
the components that go into it.  Because I think sometimes when we talk about increasing costs we 
are really meaning increasing tuition, and I am trying to sort out the differences between the two.

	Coming from the State legislature, it is very clear to me the trade-off between State support 
and tuition; and we are seeing that right now.  As the States are strapped, you are seeing States 
reduce their support for public higher education.  As a result, the colleges and universities have one 
or two choices, either they can cut back in services, they can fire some professors or cut back some 
programs or whatever, or they can make up the difference in increasing tuition.

	That does not mean the costs of the education have changed.  It just means the different 
components going into paying for it have changed.  I think it is helpful for us to be reading off of 
the same song sheet.

	Is the cost in public higher education, I know tuition is going up, but to what extent is the 
overall cost of providing that education like on a per-pupil basis going up?  Because my 
understanding is that, while it has been rising, it has not been going up like medical inflation and all 
of these other things.  It has been going up but not as rapidly.  Tuitions are going up largely 
because of the withdrawal of State support.

	If I could get a sense from all of you if you know, and sort of on the national and average 
level what is the increase.

Mr. Newman.  Actually, I hate to do this again.  Can I disagree?

Mr. Van Hollen.  Sure.

Mr. Newman.  It is bad to do it twice.  It is bad to do it once.

	If you take the last few years, and obviously, this year particularly and next year are 
extraordinary years, the financial crisis in the States mean that public institutions are really doing 
some extraordinary things to keep functioning on a reasonable basis.  But if you exempt that, if you 
take, for example, the period from 1980 to 2000, what happened during that period was State 
support on any basis you wanted to look at it taken as a whole for higher education increased on a 
per-student basis after inflation.  That is to say, institutions over that period of time got a significant 
increase over that 20-year period in the amount of money they got from the State, real money.

	In addition to that, the other revenue sources they have increased.  So in the research 
university world the federal research dollars increased substantially.  Tuition increased during that 
period, even though State support was increasing, and fund-raising increased.  Now that depended 
on the institution, but many of the major public institutions became skilled fund-raisers.

	The result of that is the question you are asking, is the actual cost of educating went up.  
There is no question about it.  It went up at a fairly sizable rate.  It is not that it simply has been a 
trade-off of we did not get the State money so we have to increase the tuition.  That is true today 
more than ever.  It is always true during down times, but in fact it was going on when times were 
very good and the amount money was going up.

Mr. Van Hollen.  Do you have, and it would be interesting to see a chart in the rise in tuitions 
versus the rise in costs.  My sense is, at the State level, and having just come from the State 
legislature, even at times even when State support was going up we tried to keep pressure down on 
tuition so that could not rise as quickly as it would in normal times.  But it would be interesting to 
see what the increase was.

	On the issue you raised, Dr. Newman, on the question of the students at lower-income 
levels where such a small percentage graduated, and we talked about some strategies for changing 
that, do you see there being a federal role?

	Listening to testimony, it almost sounds like this is something the institutions themselves 
really have to get a handle on, the students at the university or the college.  It sounded like there are 
some cases where, because of the way the college or university handled the situation, whether it 
was on-campus jobs or things like that, they were able to, you know, increase its graduation rates.

	This has been raised in the context of a congressional hearing.  Do you see there being 
federal strategies or is this something that we should say to colleges and universities, you have 
identified the problems; go out and find a good way to deal with it?

Mr. Newman.  I think there is a federal role.  I think there is a role at the federal government, the 
State government and the institutions.

	The institutions, first of all, have to accept the fact that this is a problem, it is their problem, 
and they need to do something about it.  In our discussions, they too often said, I wish more 
presidents would answer it the way President Duncan did.  And I am just saying that because she is 
from Maryland, and we know that is a powerful State.  But, too often, the tendency is to say, the 
student did not do well.  We probably shouldn't have admitted that student.

	The evidence is very strong.  Miami Dade Community College has an excellent program 
along this line.  The students in Miami are tough students to educate, but they have done extremely 
will with them.  You can see places like that all over the place.

	What it means, among other things, is what you mentioned, congressman, about being 
tutored and mentored while you were at Yale.  The difference is that Yale has enormously more 
resources to do that and the will to do it and the recognition that a student that gets into Yale ought 
to graduate.  Whereas that is not uniformly shared, I think there is an institutional responsibility.

	But I think the federal government can do several things.

	First of all, if it makes plain what the statistics are, the way repeatedly all three of us have 
argued for.  The federal government does force you to tell how the basketball players are doing.  
But if you start making these things plain, the institutions will start responding.  They always do 
respond to better information.

	Secondly, the questions of student aid and the other support program recommends are real.  
I think the federal government has a real role in this.

Mr. Ehlers. [Presiding.]  The gentleman's time has expired, and it is my turn.

	I appreciate you being here.  It has been an excellent panel.

	I have a deep love for higher education.  I have devoted a good share of my life, 30 years, 
four as an undergraduate, four as a graduate, and 22 teaching.  But I also served as the Chairman of 
the Higher Ed Appropriations Subcommittee at the State Senate level, so I am very familiar with 
the problems you are discussing.

	Let me just make a couple of comments, and I would like each of you to react to them.

	I am very concerned, first of all, about the federal government being the one governing the 
accountability, although there is certainly a need for accountability, and I am interested in whether 
or not accountability could be built in as part of the accreditation process.  We already have that 
mechanism in place.  If they do such mundane things as counting how many books there are in the 
library as part of accreditation, it seems to me that they could certainly begin to get at Mr. Miller's 
comment about the fact that the bookkeeping is different at every school and the accounting 
methods are different.  Why not have them adopt standard methods of accountability, such as 
financial accountability, instructional accountability, and so forth, and make that part of the 
accreditation process, which every institution of higher education goes through periodically?

	The second question is on the issue of inflation, which you have heard so much about.  
There are two aspects that bother me: first of all, the inflation of costs, tuition, books and other 
things, and secondly, of grades.  They have totally different causes, but they are both major 
problems.  As I find when I interview students, I almost have to disregard their transcripts.  It is 
virtually meaningless because all of them are getting very high grades, and so clearly it is not a 
good measure.  Also in terms of the financial inflation.

	I find it interesting, I think we have a real problem here that I do not hear discussed much 
and that is it is very difficult to increase the productivity of higher education or even K-12 
education, just as it is very difficult to increase productivity in the medical field.  Whereas in a 
factory or any other work place, you can increase productivity.  That, I think, is part of the reason 
for the rapidly increasing costs.  Simply because when you have one situation, as you do in a 
hospital, or a one-on-20 situation, as do you in higher education, how do you increase productivity?  
Particularly when other expenses such as university-wide computer systems and others come in.

	Finally, my final comment is about loans.  I hear a lot of concerns about the increasing 
amount of student loans.  I have to tell you, I had this opinion when I was a professor and I told 
students to not worry about their loans, and I still feel that way.

	The average student accumulated student loan as of this year is approximately $18,000 per 
student.  Think about the students who did not go to college.  They probably bought a car and 
borrowed $18,000 for it.  What is going to be more useful for future earnings, the car or the 
education?  Obviously, the education, because it pays for itself.

	Similarly, when students get out of college they get married, they buy a house, they may 
even have a $200,000 mortgage.  It is going to make their cost of education look pretty small, and 
in fact their education will help them pay off the mortgage on their house more quickly.

	So I think certainly we need accountability to keep the costs in rein, but at the same time I 
don't think we should build this atmosphere that it is terrible to borrow money for an education but 
it is fine to borrow is it for a car or house or anything else that you want.

	I would appreciate your comments on the accountability through accreditation, the inflation 
issue and the loans.  Let's go backwards this time, Dr. Newman and Dr. Duncan and Mr. Miller.

Mr. Newman.  Let me choose the productivity question.

	I understand your point about the difficulty of understanding in an organization that 
functions the way a university or college does even what productivity means, let alone how to 
increase it.  But there is some very interested and encouraging data.

	I was mentioning before the Pew grants that were experimenting with redesigning courses 
and trying to make them do three things: cost less, improve student learning and improve student 
satisfaction; and that is really what productivity is about.  If you can do those three things 
simultaneously, it is more productive.

	What they found, at least for large introductory courses, one would have to be careful about 
saying if they can do it there they can do it anywhere, that you could take essentially any large 
introductory course and make significant savings and improve student learning and improve 
student satisfaction.  They did it by a variety of things, and I have gone and looked at a number of 
programs, and I come away convinced that they have made real gains.

	So that is one example.  There are several other examples that I have been to see that fit 
this.

	So I would argue that today we have arrived at a point that if people are willing to sit down 
and do a careful analytical job, which we essentially almost never do in higher education, if we 
take, for example, if we ask ourselves the question, how do we teach students mathematics?  And 
we ask that question and look at it and try to find more effective ways of doing it so that the student 
learns more and it costs us less, we can actually do it.

	But it takes that kind of determination.  That is not the way we are structured to do it.  We 
are structured to do it that the professor just figures, here is what I am going to do, and we do the 
same thing, which is a costly way of doing it.

	People have found cheaper ways principally by using adjuncts, but, of course, that has huge 
costs in terms of quality associated with it.

Mr. Ehlers.  Thank you.

Dr. Duncan?

Ms. Duncan.  To your point about accountability, I think using the accrediting agencies as 
mechanisms for getting to some of the issues that you are talking about is appropriate; and I think 
many of them are addressing that.  I don't think that in today's standards you see this input 
anymore.  I think that is kind of old news.  That did happen at one time, but you do not see that 
today in any of the standards.  Nobody is counting books in the libraries anymore.

	What you do see, for instance, in North Central is the option to use the Baldrich criteria as a 
method of reporting; and I think it has a lot of very interesting aspects that gets to the issues that 
you talked about.  Cost, productivity, student outcomes, all of those issues is addressed in that 
model.  You see in middle States and emphasis on student learning outcomes.  So there is a lot 
happening in those areas in different regions of the State, of the country that address some of the 
things that you said already in the accrediting agencies.  These discussions are going on, and there 
are new models that have been available for a number of years that do improve and get to some of 
those measures.  So I think it is an appropriate way to go.  It is a process of continuous 
improvement, and I think that we should continue to work on that.

	On the subject of productivity, I certainly agree with Dr. Newman, to include all of those 
factors.  There are other issues that also become addressed, for instance, the issue of space.  Many 
of us do things now to minimize the use of space because we do not have it.  So doing on-line 
instruction or something like we do with campus web where you are in the classroom one day and 
on line 2 days to relieve classroom space for other types of use.

	All of these measures, student learning, student satisfaction, cost effectiveness and the use 
of your facilities, how to get the most use out of them, and using them, of course, all the time, from 
7:00 in the morning to 11:00 at night, including weekends, is another productivity piece.

	I think that many of us have had to learn how to find ways to increase productivity.  But it 
is not simply a measure of how many students and the students-teacher ratio, it is much more 
complex than that.  That is only one measure.  And, remember, we do not want to sacrifice the 
outcomes of retention and graduation.  So we wouldn't look at just one measure.  We have to 
include all of those.

	On inflation of costs and inflation of grades, the whole aspect of the learning outcomes 
provides comparisons.  For instance, at our community college all faculty have to do a learning 
outcomes project; and they have to compare with outside institutions, other tests, either a 
standardized test, a national measure or a university measure, to see whether or not in fact learning 
occurs.

	This prevents the inflation of grades by insisting that we look at other measures other than 
our own.  I think it helps a great deal, and it is something that I think faculty is very concerned 
about.  Faculty does not like their reputation to be eroded by saying that they all give good grades.  
There are Web sites now where students also evaluate how they grade, and the administrator can 
look to see if they have a reputation for giving good grades or hard grades.

Mr. Ehlers.  The accrediting agencies basically set the bar.  They set the minimum requirements.  
Do they do any comparative evaluation?  Do they look at all of these aspects and say University A 
is doing a better job than University B?  Students are learning more at University X instead of 
University Y?

Ms. Duncan.  They certainly ask to you name peer institutions and be involved in benchmarking 
projects.  More and more we are talking about benchmarking and looking at peer institution not 
only within our States but also outside of our States.

Mr. Ehlers.  Is that public information that the federal government could use as part of their 
evaluation?

Ms. Duncan.  Any information that is gathered is public information.

Mr. Newman.  There is, Mr. Chairman, a very interesting thing going on that could fit your 
description.  I don't know if you are familiar with the National Survey of Student Engagement.  
And there is a Community College Survey of Student Engagement.  They are trying to measure 
they are nongovernmental efforts, but they are trying to measure things that are not learner 
outcomes but are surrogates for it.  For example, how much contact is there between students and 
faculty?  How much this?  How much that?  Not just books in the library but things that are 
relevant to learning.  So far they have been private, because the institution insisted that they be 
private at first.

	The community college one is going on-line with all of the information from the 
community college collected on the 23rd of this month.  The university one isn't yet going on-line.

Mr. Ehlers.  Okay.  Mr. Miller?

Mr. Charles Miller.  The question, which is the new question today, I am in agreement with you.  
I think there is a good economic case that people can afford to pay for it themselves, and people 
should have responsibility to do that.  You have done it on the other end of the pipeline, 
encouraging tax shelters or tax incentives or things that encourage savings for higher education.  I 
would still encourage that people start early and remember the value of it so that by the time that 
the student gets to college there is at least some incentive to have it paid for by the people that are 
going to use it and benefit from it.

	There are many private contributions to that.  Anything that would encourage that would be 
helpful, but there is nothing I see wrong with borrowing money to get a college education within 
reason, and I think it should be encouraged as part of the financial aid program.

	What you said is accurate.  I think what is happening in a lot of cases, people that feel 
pressed about loans have made decisions to do something else with their funds in many cases and 
find themselves caught short when it comes time to have the child educated, including the parents.  
So I think if loans are required, if people have the option of doing that, that is a good element.

	I think I have said, on accountability, one of the problems again is transparency in data; and 
the federal government in my opinion does have a role.  I don't think you should regulate higher 
education.  The response I have heard on the accreditation, using that as an accountability place, 
has been very firmly opposed because people feel that is a federal regulatory step.  I think of it 
more like we do securities markets, which is where I come from.  There is less true regulation, and 
we found some failures there because of self-regulation that got to a certain point where we had to 
intervene.  We should intervene at times, and there is a role for the federal government to complete 
information, put it in a form for policymakers to use.  We do that with census data and a lot of 
other things.  We put it in a form for people to use.  We should do that in higher education.  That 
will make the system be more accountable.  It will not have a choice.

Mr. Ehlers.  My time has expired, but I would like to see, Dr. Newman, the data on teaching large 
classes and having better student learning.

	Because when I was teaching at Berkeley I taught several classes with hundreds of students 
in, and at a private liberal arts college I taught much smaller classes, and I would find it hard to 
believe that there is a way that you could structure a class of 200 or 300 students where the learning 
takes place as well as it does in the classroom of 20 or 30 students.  So you can send that to me 
later.

	Thank you.  My time is more than expired.

Mr. Andrews, I apologize for taking so much time.

Mr. Andrews.  Please, I enjoyed hearing the questions and the answers.

	I also would like to thank the witnesses for their insight and endurance this afternoon.

	I am very worried about the rising cost of getting a higher education, and I think we do need 
to adopt measures that make data more transparent so people can know what they are buying in 
terms of quality.  However, I would question the underlying premise of the hearing which 
implicitly is that the market is dysfunctional in the area of higher education, that even though there 
are many, many, many choices as to where one can go to school and many different programs that 
the price that is yielded by market competition is somehow dysfunctional.  I disagree with that.

	In fact, I think it is a rather rational functioning market in this way:  I think that the gap 
between a person who is skilled and unskilled in terms of lifetime income has accelerated faster 
than the increase in the cost of getting a higher education.  And I think, although many students 
would not articulate their choice this way, they intuitively understand that taking on this significant 
expense at some point in their lives, usually early in their lives, more than pays back in multiples 
over the course of the rest of their life.

	So, I approach this from a very different point of view and, frankly, find any explicit or 
implicit price regulation to be unacceptable.  I think the premise of the price regulation is flawed to 
begin with. .

	I am in favor of more transparent information about quality.  I think most people choose a 
school based upon what happens to the graduates of that school.  For example, there is a 
community college near my area that has an outstanding mortuary science program, and the 
students that want to go to that program look at whether the people are hired by funeral homes and 
whether they are still working as morticians later on. .

	I went to Cornell.  I know that people look at Brown on the basis of whether they can read 
and write when they graduate.  I say that in jest.

	Let me ask you this question:  If we were going to make higher education the first priority 
of the federal budget, a truly parallel universe, if we were going to make it the first priority of the 
federal budget, I would like each of you to tell me what you think the maximum Pell grant ought to 
be and what the maximum family income ought to be to qualify for a Pell grant.  If you make more 
than $40,000, you effectively do not get a Pell grant.  If we were going to make higher education 
spending the first priority in the budget, what should the maximum Pell and be what should the 
maximum family income be for eligibility?

Mr. Newman.  Well, everybody else is standing back, so I will go plunge ahead fearlessly.  I think 
that is a nifty question.

	First, I would make the maximum Pell grant fairly sizable and maybe something in the 
order of 8- or $10,000, $8,000 probably.

Mr. Andrews.  What would you make the maximum family income that could begin to receive it?  
I realize you wouldn't give the same grant to everybody.  What would the maximum family income 
be?

Mr. Newman.  Certainly no higher than $60,000 and maybe less.  The reason I say that is because 
student aid in the rest of the system is moving rapidly toward middle-income and up students.  It is 
moving toward merit and other vehicles, ways of getting money to students.  The net effect is that 
the great bulwark of worry about this low-income student is the federal government.  In fact, one 
could almost say it is the last bulwark.  And what is happening institutionally is it is moving toward 
merit, away from low-income students.

	The Pell grant and the federal government were the original agencies worrying about this.  
It is now more central than ever that they focus on the low-income student.

Mr. Andrews.  Dr. Duncan, what would you say?

Ms. Duncan.  I would agree with Frank.  Those are good numbers.

Mr. Andrews.  The 8- to 10- would take it close to 80 or 90 percent of public university average 
tuitions.  It is now down to 42 percent, I think.

Mr. Miller what you would say?

Mr. Charles Miller.  I am not as sophisticated on the details as these people, but I wouldn't do 
much to raise those limits today unless there was some conditions about higher education providing 
more accountability to the public and more information and data that is transparent to you all.

	And I don't want price controls, so I really want to be clear.  I am very uncomfortable with 
that idea at any level.  Although I was intrigued by what Congressman McKeon said when he said 
everything else but the details of his plan.  I think there is a very important crisis coming up.  When 
we see the cuts in the States that we haven't seen yet and when we see the rise in tuition that we 
haven't seen yet but are on the table, I think we will see it more clearly.

Mr. Andrews.  What if we passed a law that said that every institution that receives title 4(a), 
which is really every institution, has to publish on the internet the following information: what 
percentage of their students graduate; what percentage of their students are employed after five 
years of graduation; what percentage of their students are employed in the field of their major field 
of study in five years; what the median income of their graduates is after five years; and what the 
loan default rate is for after five years.

	Let's assume we did that.  What do you think the maximum Pell ought to be under those 
circumstances?

Mr. Charles Miller.  I think that kind of data is what we are looking for in a format that could be 
used several combinations for several kinds of institutions.  Because I believe there is diversity and 
a marketplace that can work with that and has worked.  I think it could be raised if it is means 
tested.  I do not have a set number that I have studied carefully.  Over time, if we get the kind of 
accountability that is proper and transparency that is proper for the federal government to provide 
aid for students from families who need that protection.

Mr. Andrews.  I appreciate that.  I realize my time has expired.  I just make this comment.

	I do appreciate the need for more accountability.  I think costs are a problem.  It is not the 
number one problem in higher education in America today.  The problem in American higher 
education is that students in the bottom 40 percent or so of family incomes have to borrow an 
amount of money that is so overwhelming for them that a lot of them are not going to school, are 
not staying because they have to work full-time once they are there, and are being sort of diverted 
from the schoolhouse door.

	The answer to that is some combination of an increase in the Pell, a broadening of the 
work/study program, in my view, an increase in flexibility of loan repayment and some other 
combination of tools.  If you make 31-, $32,000 a year family income and you are looking at 14-, 
$15,000 a year to go to Rutgers in my State, you are not going, if you have to borrow 9- or $10,000 
a year.  That is the problem, and I look forward to the committee having that hearing soon.

Mr. Ehlers.  The gentleman's time has expired.  I thank you for those thoughtful questions.

	Part of the problem, incidentally, with the marketplace that you referred to is that in today's 
system you virtually have to be a college graduate to understand enough in order to choose 
appropriately to make the marketplace work.  So we have to improve the accessibility of that 
information so that students that can, in fact, make those decisions.

	This concludes our hearing.  I wish to thank the witnesses for giving up their valuable time 
to enlighten us about their perspectives.  I rarely sit through an entire hearing, and this is one I 
enjoyed sitting through because I learned a great deal all the way through the hearing.  I appreciate 
your participation.

	If there is no further business, I declare the hearing adjourned.

	[Whereupon, at 4:30 p.m., the committee was adjourned.]






















APPENDIX A -- WRITTEN OPENING STATEMENT OF CHAIRMAN JOHN 
BOEHNER, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENTATIVES, WASHINGTON, DC. 





















APPENDIX B -- WRITTEN STATEMENT OF CHARLES MILLER, 
CHAIRMAN, UNIVERSITY OF TEXAS SYSTEM BOARD OF REGENTS, 
HOUSTON, TEXAS 












APPENDIX C -- WRITTEN STATEMENT OF DR. MARY ELLEN DUNCAN, 
PRESIDENT, HOWARD COMMUNITY COLLEGE, COLUMBIA, 
MARYLAND 













APPENDIX D -- WRITTEN STATEMENT OF DR. FRANK NEWMAN, 
DIRECTOR, THE FUTURES PROJECT, BROWN UNIVERSITY, 
PROVIDENCE, RHODE ISLAND 













APPENDIX E -- ADDITIONAL MATERIAL SUBMITTED BY DR. FRANK 
NEWMAN IN RESPONSE TO CHAIRMAN BOEHNER'S REQUEST  













APPENDIX F -- RESPONSES FROM CHARLES MILLER AND DR. MARY 
ELLEN DUNCAN TO REPRESENTATIVE RUBEN HINOJOSA'S 
SUBMITTED WRITTEN QUESTIONS
  













APPENDIX G - WRITTEN STATEMENT SUBMITTED FOR THE RECORD 
BY REPRESENTATIVE DENNIS J. KUCINICH, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES



183

TABLE OF INDEXES



Chairman Boehner, 1, 5, 6, 7, 9, 11, 12, 13, 14, 20, 24, 26, 27
Mr. Andrews, 45, 46, 47, 48
Mr. Bishop, 24, 25, 26, 27
Mr. Burns, 32, 33, 34
Mr. Carter, 5, 16, 17, 18
Mr. Castle, 20, 22, 23, 24, 27
Mr. Charles Miller, 5, 6, 11, 14, 16, 21, 22, 24, 25, 26, 28, 29, 31, 32, 35, 45, 47
Mr. Ehlers, 41, 43, 44, 45, 48
Mr. Hinojosa, 30, 31, 32
Mr. Keller, 27, 28, 29, 30
Mr. Kildee, 3, 14, 15
Mr. McKeon, 3, 15, 16, 18, 30, 31, 32, 34, 36, 38
Mr. Newman, 9, 13, 16, 19, 23, 24, 27, 28, 33, 38, 39, 40, 42, 44, 46, 47
Mr. Van Hollen, 39, 40
Mrs. McCarthy, 18, 19, 20
Ms. Duncan, 8, 12, 15, 17, 18, 22, 23, 26, 29, 30, 31, 33, 36, 43, 44, 47
Ms. Majette, 34, 35, 36




clxxx

179


</pre></body></html>
